APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Supreme Court State of
North Dakota
(November 19, 2020) . . . . . . . . . . . App. 1
Appendix B Judgment in the Supreme Court State
of North Dakota
(November 23, 2020) . . . . . . . . . . App. 12
Appendix C Opinion in the Supreme Court State of
North Dakota
(May 16, 2019) . . . . . . . . . . . . . . App. 14
Appendix D Judgment in the Supreme Court State
of North Dakota
(June 7, 2019) . . . . . . . . . . . . . . . App. 29
Appendix E Judgment in the District Court North
Central Judicial District, State of
North Dakota, County of Ward
(July 20, 2018) . . . . . . . . . . . . . . App. 31
Appendix F Order in the District Court North
Central Judicial District, State of
North Dakota, County of Ward
(May 29, 2018) . . . . . . . . . . . . . . App. 52
Appendix G Order in the District Court North
Central Judicial District, State of
North Dakota, County of Ward
(December 14, 2017) . . . . . . . . . . App. 62

ii
Appendix H Notice of Trial in the District Court
North Central Judicial District, State
of North Dakota, County of Ward
(January 12, 2018) . . . . . . . . . . . App. 69
Appendix I Complaint in the District Court North
Central Judicial District, State of
North Dakota, County of Ward
(September 7, 2016) . . . . . . . . . . App. 71
Appendix J Answer and Counterclaim in the
District Court North Central Judicial
District, State of North Dakota,
County of Ward
(October 25, 2016) . . . . . . . . . . . . App. 77
Appendix K Reply to Counterclaim in the District
Court North Central Judicial District,
State of North Dakota, County of
Ward
(November 9, 2016). . . . . . . . . . . App. 85
Appendix L Plaintiff’s Pretrial Statement, Witness
List, Exhibit List and Request for Jury
Instructions in the State of North
Dakota County of Ward
(December 18, 2019) . . . . . . . . . . App. 87
Appendix M Letter to the Honorable Gary H. Lee
(December 12, 2019) . . . . . . . . . . App. 91
Appendix N Proposed Jury Instructions . . . . App. 93

iii
Appendix O Order in the State of North Dakota
County of Ward in District Court
North Central Judicial District
(January 3, 2020) . . . . . . . . . . . App. 123
Appendix P Stipulation Regarding Valuation,
Attorney’s Feeds and Entry of a Final
Order of Condemnation in the State of
North Dakota County of Ward in
District Court North Central Judicial
District
(January 7, 2020) . . . . . . . . . . . App. 126
Appendix Q Order in the State of North Dakota
County of Ward in District Court
North Central Judicial District
(January 7, 2020) . . . . . . . . . . . App. 132
Appendix R Order in the State of North Dakota
County of Ward in District Court
North Central Judicial District
(February 7, 2020) . . . . . . . . . . App. 134

App. 1

APPENDIX A
IN THE SUPREME COURT
STATE OF NORTH DAKOTA
2020 ND 234
[Filed: November 19, 2020]
__________________________________________
Montana-Dakota Utilities Co., a
)
Division of MDU Resources Group, Inc.,
)
n/k/a Montana-Dakota Utilities Co., a
)
Subsidiary of MDU Resources Group, Inc., )
Plaintiff and Appellee
)
v.
)
)
Lavern Behm,
)
Defendant and Appellant
)
__________________________________________)
No. 20200122
Appeal from the District Court of Ward County, North
Central Judicial District, the Honorable Gary H. Lee,
Judge.
AFFIRMED.
Opinion of the Court by Tufte, Justice.
Zachary R. Eiken, Bismarck, N.D., for plaintiff and
appellee.
Lynn M. Boughey, Mandan, N.D., for defendant and
appellant.

App. 2
MDU v. Behm
No. 20200122
Tufte, Justice.
[¶1] Lavern Behm appeals from a judgment ordering
Montana-Dakota Utilities Co. (“MDU”) to pay him
$17,443 in attorney’s fees and costs incurred in an
eminent domain action. Behm argues his constitutional
rights were violated in the eminent domain action and
the district court erred by failing to award him some of
the attorney’s fees he requested. We affirm.
I
[¶2] MDU brought an eminent domain action under
N.D.C.C. ch. 32-15 to acquire an easement across
Behm’s property for a 3,000-foot natural gas pipeline to
service a Burlington Northern Santa Fe railroad
switch. The district court bifurcated the proceedings
between necessity of the taking and damages.
Following a bench trial, the district court concluded
that the “proposed pipeline is . . . a use authorized by
Section 32-15-02, NDCC,” but that a taking of Behm’s
property was not necessary for the public use under
N.D.C.C. § 32-15-05.
[¶3] MDU appealed, and this Court reversed the
district court’s decision that the proposed taking was
not necessary for public use. Montana-Dakota Utils.
Co. v. Behm, 2019 ND 139, ¶ 1, 927 N.W.2d 865. We
remanded “for trial on eminent domain damages to be
awarded to Behm.” Id. at ¶ 19.
[¶4] Behm petitioned the United States Supreme Court
for a writ of certiorari asserting various constitutional

App. 3
violations related to the eminent domain action. His
petition was denied. Behm v. Montana-Dakota Utils.
Co., 140 S. Ct. 521 (2019).
[¶5] On remand, Behm submitted proposed jury
instructions and requested the court allow the jury to
determine in an advisory capacity whether the taking
was necessary and for a public use. The district court
denied Behm’s request for the jury instructions, ruling
the issue of damages was the only issue left to be
decided.
[¶6] The parties stipulated to the valuation of the
easement, and the district court adopted the
stipulation. Behm moved for attorney’s fees and costs
in the amount of $49,561.78, including the fees
incurred for the petition for writ of certiorari to the
United States Supreme Court. MDU objected to the
requested fees. The district court ordered MDU to pay
Behm $17,443 in fees and costs.
II
[¶7] Behm makes various arguments about the
constitutionality of the eminent domain proceedings.
He claims it is a violation of due process and the
takings clause for the State to allow a private
corporation to take property through eminent domain,
for the State to disregard a finding that the taking is
not necessary and allow the corporation to take the
property on the corporation’s finding the taking is
necessary, and for the State to disregard findings of no
public use and allow the corporation to take the
property on its determination of a public use. He
contends it is a violation of due process, the takings

App. 4
clause, and the right to a jury to allow a taking without
a jury determination that the taking is for a public use
and that the taking is necessary.
[¶8] The law of the case doctrine and the mandate rule
apply to Behm’s arguments. This Court has explained:
Generally, the law of the case is defined as
the principle that if an appellate court has
passed on a legal question and remanded the
cause to the court below for further proceedings,
the legal question thus determined by the
appellate court will not be differently
determined on a subsequent appeal in the same
case where the facts remain the same. In other
words, [t]he law of the case doctrine applies
when an appellate court has decided a legal
question and remanded to the district court for
further proceedings, and [a] party cannot on a
second appeal relitigate issues which were
resolved by the Court in the first appeal or
which would have been resolved had they been
properly presented in the first appeal. The
mandate rule, a more specific application of law
of the case, requires the trial court to follow
pronouncements of an appellate court on legal
issues in subsequent proceedings of the case and
to carry the appellate court’s mandate into effect
according to its terms. . . . and we retain the
authority to decide whether the district court
scrupulously and fully carried out our mandate’s
terms.

App. 5
Dale Expl., LLC v. Hiepler, 2020 ND 140, ¶ 13, 945
N.W.2d 306 (quoting Johnston Land Co., LLC v.
Sorenson, 2019 ND 165, ¶ 11, 930 N.W.2d 90).
[¶9] Behm submitted proposed jury instructions to the
district court, requesting the court allow a jury to sit in
an advisory capacity and determine whether the taking
of his property was necessary and for a public use. He
explained that allowing those issues to be presented to
the jury would allow a complete record on appeal for
the purpose of attempting to change state law. The
district court denied Behm’s request for the proposed
jury instructions. The court explained that the issue of
the necessity of the taking and whether the taking was
for a public use were previously tried and appealed and
that the decision was reversed on appeal and the case
was remanded for a trial on damages. The court
concluded it must adhere to the mandate rule on
remand, this Court’s mandate was clear, and the only
matter left for determination was the issue of eminent
domain damages to be awarded to Behm.
[¶10] In the prior appeal, we held the district court
correctly concluded the proposed pipeline was for a
public use, but the court erred in ruling the proposed
taking was not necessary for a public use. Behm, 2019
ND 139, ¶¶ 10, 18. We reversed the judgment and
“remand[ed] for trial on eminent domain damages to be
awarded to Behm.” Id. at ¶ 19. We did not remand for
a new trial on the issues of necessity and public use or
for new arguments to be raised about the prior
proceedings. The district court fully carried out our
mandate’s terms.

App. 6
[¶11] Furthermore, Behm’s arguments about the
constitutionality of the eminent domain proceedings
and whether a jury should have determined certain
issues could have been raised in the district court
before the prior appeal and to this Court in the first
appeal. In the prior appeal, this Court acknowledged,
“Behm lists ten issues in his cross-appeal but does not
specifically address any of them in his brief. We do not
address inadequately briefed issues.” Behm, 2019 ND
139, ¶ 19. These ten issues that we declined to review
included, “Whether the district court erred in not
finding a violation of federal and state constitutional
rights by the proposed taking.” The constitutional
arguments he makes in the current appeal could have
been resolved in the first appeal had they been properly
presented, and therefore they are barred by the law of
the case doctrine.
[¶12] We conclude Behm’s constitutional arguments
are precluded under the law of the case doctrine and
the mandate rule.
III
[¶13] Behm argues the district court abused its
discretion by failing to award him attorney’s fees and
costs related to his petition for writ of certiorari.
[¶14] We review the district court’s decision on costs
and attorney’s fees in an eminent domain action for an
abuse of discretion. Lincoln Land Dev., LLP v. City of
Lincoln, 2019 ND 81, ¶ 20, 924 N.W.2d 426. A court
abuses its discretion if it acts in an arbitrary,
unreasonable, or unconscionable manner, if its decision
is not the product of a rational mental process leading

App. 7
to a reasoned determination, or if it misinterprets or
misapplies the law. Id.
[¶15] Section 32-15-32, N.D.C.C., provides for costs and
attorney’s fees in an eminent domain case, stating:
The court may in its discretion award to the
defendant reasonable actual or statutory costs or
both, which may include . . . costs on appeal, and
reasonable attorney’s fees for all judicial
proceedings. If the defendant appeals and does
not prevail, the costs on appeal may be taxed
against the defendant. In all cases when a new
trial has been granted upon the application of
the defendant and the defendant has failed upon
such trial to obtain greater compensation than
was allowed the defendant upon the first trial,
the costs of such new trial shall be taxed against
the defendant.
This Court has said the statute authorizes the district
court to award reasonable attorney’s fees for all judicial
proceedings in an eminent domain action. Lincoln
Land, 2019 ND 81, ¶ 22. We explained courts should
consider a number of factors in deciding whether to
award fees and costs in an eminent domain case,
including the number of hours spent, the rate per hour,
the character of the services rendered, the results
obtained, the customary fee charged in the locality, and
the ability and skill of the attorney. Cass Cty. Joint
Water Res. Dist. v. Erickson, 2018 ND 228, ¶ 29, 918
N.W.2d 371; see also City of Bismarck v. Thom, 261
N.W.2d 640, 646 (N.D. 1977). We have also said, “[I]t is
essential that the prevailing party, and the court, if
need be, exclude any hours that are excessive,

App. 8
redundant, or otherwise unnecessary.” N.D. Dep’t of
Transp. v. Rosie Glow, LLC, 2018 ND 123, ¶ 11, 911
N.W.2d 334.
[¶16] Behm requested $49,561.78 in attorney’s fees and
costs for fees related to the prior appeal, the petition
for writ of certiorari to the United States Supreme
Court, and to resolve the issue of damages. The district
court previously awarded Behm $22,150 in attorney’s
fees and costs before the prior appeal, and the court
found MDU tendered payment for all fees associated
with the initial phase of the trial. The court awarded
Behm $17,443 of the $49,561.78 total request,
including the fees and costs incurred for the prior
appeal and subsequent proceedings in the district
court. The court denied the attorney’s fees requested
for contacts with individuals who were strangers to the
proceedings and for communications between Behm’s
attorney and office staff about billing matters and other
financial matters. The court also denied any fees
related to the petition for writ of certiorari. The court
concluded N.D.C.C. § 32-15-32 allows for fees for all
judicial proceedings, but that term does not include “a
side trip” to a federal court, and the statute limits the
recovery of attorney’s fees to legal services related
directly to the condemnation proceeding alone. The
court explained the petition to the United States
Supreme Court was “an improvident act,” N.D.C.C.
§ 32-15-32 does not contemplate a recovery for all fees
incurred for any proceeding not directly contemplated
by the chapter, and therefore the fees would not be
allowed.

App. 9
[¶17] Section 32-15-32, N.D.C.C., gives the district
court discretion to award “reasonable actual or
statutory costs” and “reasonable attorney’s fees for all
judicial proceedings.” We have limited recovery of
attorney’s fees to litigation of claims asserting
condemnation or inverse condemnation. United Power
Ass’n v. Moxness, 267 N.W.2d 814, 817 (N.D. 1978)
(reversing fee award for proceedings before the public
service commission); Arneson v. City of Fargo, 331
N.W.2d 30, 39 (N.D. 1983) (affirming fee award limited
to inverse condemnation and excluding litigation of
negligence issues); Gissel v. Kenmare Twp., 512 N.W.2d
470, 478 (N.D. 1994) (affirming as reasonable the
district court’s reduction of requested attorney’s fees
due to “overextended conferences and an improvident
appeal”). Although the court explained its reasoning
that the petition was an “improvident” “side trip” and
therefore unreasonable to that extent, it further stated
that Behm’s “petition to the United States Supreme
Court is not a proceeding contemplated in Chapter 3215.” If otherwise reasonable, the district court may
award attorney’s fees for “all judicial proceedings,”
including a petition for certiorari to the United States
Supreme Court asserting takings claims under the
United States Constitution. N.D.C.C. § 32-15-32. We
will not set aside a correct result merely because part
of the reasoning supporting that result was incorrect.
Schmidt v. City of Minot, 2016 ND 175, ¶ 16, 883
N.W.2d 909. We conclude the district court did not
abuse its discretion by denying as unreasonable the
attorney’s fees and costs Behm requested related to the
petition for writ of certiorari.

App. 10
IV
[¶18] MDU requests an award of costs and fees on
appeal under N.D.R.App.P. 38 for defending against
the constitutional issues raised in the appeal. MDU
contends Behm failed to properly raise the
constitutional issues in the prior appeal, he did not
adequately brief the issues in this appeal, he did not
address current case law on these issues, and he
wasted the Court’s and MDU’s resources with his
unsupported arguments. In the previous appeal, we
held that the district court erred in concluding the
proposed taking was not necessary for a public use, and
remanded for trial on eminent domain damages.
Montana-Dakota Utils. Co. v. Behm, 2019 ND 139,
¶¶ 18-19, 927 N.W.2d 865.
[¶19] Rule 38, N.D.R.App.P., provides, “If the court
determines that an appeal is frivolous, or that any
party has been dilatory in prosecuting the appeal, it
may award just damages and single or double costs,
including reasonable attorney’s fees.” An appeal is
frivolous “if it is flagrantly groundless, devoid of merit,
or demonstrates persistence in the course of litigation
which could be seen as evidence of bad faith.” Frontier
Fiscal Servs., LLC v. Pinky’s Aggregates, Inc., 2019 ND
147, ¶ 21, 928 N.W.2d 449 (quoting Witzke v. City of
Bismarck, 2006 ND 160, ¶ 19, 718 N.W.2d 586). Behm’s
appeal of issues we decided in the first appeal and
beyond the scope of the remand for trial on damages
meets this standard.
[¶20] We award MDU single costs and attorney’s fees
in the amount of $500.

App. 11
V
[¶21] We affirm the judgment.
[¶22] Jon J. Jensen, C.J.
Daniel J. Crothers
Jerod E. Tufte
Allan L. Schmalenberger, S.J.
David Nelson, S.J.
[¶23] The Honorable Allan L. Schmalenberger and the
Honorable David Nelson, Surrogate Judges, sitting in
place of VandeWalle, J., and McEvers, J., disqualified.

App. 12

APPENDIX B
IN THE SUPREME COURT
STATE OF NORTH DAKOTA
JUDGMENT
Supreme Court No. 20200122
Ward County Case No. 2016-CV-01678
[Filed: November 23, 2020]
__________________________________________
Montana-Dakota Utilities Co., a
)
Division of MDU Resources Group,
)
Inc., n/k/a Montana-Dakota Utilities
)
Co., a Subsidiary of MDU Resources
)
Group, Inc.,
)
Plaintiff and Appellee
)
v.
)
Lavern Behm,
)
Defendant and Appellant )
__________________________________________)
Appeal from the district court for Ward County.
[¶1] This appeal having been heard by the Court at the
September 2020 Term before:
[¶2] Chief Justice Jon J. Jensen, Justice Daniel J.
Crothers, Justice Jerod E. Tufte, Surrogate Judge
Allan L. Schmalenberger, sitting in place of Justice
Gerald W. VandeWalle, and Surrogate Judge David W.
Nelson, sitting in place of Justice Lisa Fair McEvers;

App. 13
[¶3] and the Court having considered the appeal, it is
ORDERED AND ADJUDGED that the judgment of the
district court is AFFIRMED.
[¶4] IT IS FURTHER ORDERED AND ADJUDGED
that Appellee have and recover from Appellant costs
and disbursements on this appeal under N.D.R.App.P.
39, to be taxed and allowed in the court below.
[¶5] This judgment, together with the opinion of the
Court filed this date, constitutes the mandate of the
Supreme Court on the date it is issued to the district
court under N.D.R.App.P. 41.
Dated: November 23, 2020
By the Court:
[SEAL]
Jon J. Jensen
Chief Justice
ATTEST:
Petra H. Mandigo Hulm
Clerk

App. 14

APPENDIX C
Filed 5/16/19 by Clerk of Supreme Court
IN THE SUPREME COURT
STATE OF NORTH DAKOTA
2019 ND
No. 20180321
[Filed May 16, 2019]
_________________________________________
Montana-Dakota Utilities Co., a Division
of MDU Resources Group, Inc., n/k/a
Montana-Dakota Utilities Co., a
Subsidiary of MDU Resources Group, Inc.,
Plaintiff, Appellant, and
Cross-Appellee

)
)
)
)
)
)
)
v.
)
)
Lavern Behm,
)
Defendant, Appellee, and
)
Cross-Appellant
)
_________________________________________ )
Appeal from the District Court of Ward County,
North Central Judicial District, the Honorable Gary H.
Lee, Judge.
REVERSED AND REMANDED.
Opinion of the Court by Tufte, Justice.

App. 15
Anthony J. Ford (argued) and Malcolm H. Brown
(appeared), Bismarck, N.D., for plaintiff, appellant, and
cross-appellee.
Lynn M. Boughey, Mandan, N.D., for defendant,
appellee, and cross-appellant.
Tufte, Justice.
[¶1] Montana-Dakota Utilities Co. (“MDU”) appeals,
and Lavern Behm cross-appeals, from a judgment
dismissing MDU’s eminent domain action. Because the
district court misapplied North Dakota law in
concluding a taking was not necessary for a public use,
we reverse and remand for trial on eminent domain
damages to be awarded to Behm.
I
[¶2] MDU brought an eminent domain action under
N.D.C.C. ch. 32-15 to acquire an easement across
Behm’s property for a 3,000-foot natural gas pipeline to
service a Burlington Northern Santa Fe (“BNSF”)
railroad switch. The railroad switch must be heated to
keep it operable during winter months. The switch is
currently heated using propane from tanks that are
serviced and refilled by truck. Winter weather
occasionally prevents service trucks from accessing the
tanks to refill the propane. BNSF requested service
from MDU by gas pipeline, believing that natural gas
by pipeline would increase reliability and decrease the
cost associated with heating the switch. MDU claimed
that other routes for the pipeline would be too
expensive or might in the future require modification
or removal of the pipeline.

App. 16
[¶3] The district court bifurcated the proceedings
between necessity and damages. Following a bench
trial, the district court concluded that the “proposed
pipeline is . . . a use authorized by Section 32-15-02,
NDCC,” but that a taking of Behm’s property was not
necessary for the public use under N.D.C.C. § 32-15-05.
Relying on an 1883 California case for the proposition
that “necessity cannot mean mere convenience,” the
court explained:
MDU’s proposal is to place a 3000 foot
pipeline beneath Lavern Behm’s property for the
benefit of a single user, Burlington Northern
Santa Fe. While it is certainly not subject to
dispute that maintaining railway switches is a
necessity to the safe operations of the railroad,
the construction of this pipeline is not necessary
for this purpose. The current switch has been,
and can continue to be maintained through the
use of propane. The proposed pipeline serves
only the convenience of a single user, Burlington
Northern Santa Fe, while imposing a permanent
restriction on Lavern Behm’s use of his private
property.
The location of the proposed pipeline further
stretches the meaning of necessity to mean mere
convenience to MDU. That convenience is not
even a present convenience, but one of a future,
highly speculative convenience.
....

App. 17
The proposed taking [of] Lavern Behm’s
property for the purpose of this pipeline is thus
premised on a project to benefit a single user,
Burlington Northern Santa Fe. It is to be placed
on Lavern Behm’s property, a mere 5 feet from
the existing 33 foot section line right [of way].
That placement is deemed necessary by MDU
based on the speculative fear of a future event
which may never occur, and even if it does, may
not necessitate the repair or replacement of the
pipeline. The necessity proposed by MDU is
nothing more than its own mere convenience.
Contrasted to this are Lavern Behm’s rights
to own his property and to farm or otherwise
develop it as he sees fit, without the burden of
this easement. The burden on Lavern Behm is
immediate and permanent as opposed to the
uncertain and speculative necessity argued by
MDU.
The Court therefore finds that the proposed
taking and pipeline route is not compatible with
the greatest public benefit when weighed
against the immediate and permanent private
injury to Lavern Behm.
The court further concluded that “[t]his one-sided
analysis by MDU, resolving all uncertainties and
speculations in its favor, and without consideration of
Lavern Behm’s rights of ownership is arbitrary and
capricious.”

App. 18
II
[¶4] MDU argues the district court’s ruling that the
proposed taking was not necessary contradicts North
Dakota law.
[¶5] In Brandt v. City of Fargo, 2018 ND 26, ¶ 11, 905
N.W.2d 764, we recently restated the standard for a
court’s review of questions of public necessity:
Under N.D.C.C. § 32-15-05(2), “the legislature
has entrusted the right to review a
determination of the question of necessity in an
eminent domain action to the judicial branch of
government.” Oakes Mun. Airport Auth. v.
Wiese, 265 N.W.2d 697, 699 (N.D. 1978); see also
KEM Elec. Coop., Inc., v. Materi, 247 N.W.2d
668, 670 (N.D. 1976); Otter Tail Power Co. v.
Malme, 92 N.W.2d 514, 521 (N.D. 1958); Cty. of
Pembina v. Nord, 78 N.D. 473, 477, 49 N.W.2d
665, 667 (1951). In Wiese, 265 N.W.2d. at 700
(citations omitted), this Court clarified the
court’s role in determining public necessity:
To clarify the court’s role in the
determination of the question of public
necessity, we emphasize that the
determination of a condemning authority to
exercise the power of eminent domain for an
authorized public use is solely a legislative or
political question which is not subject to
judicial review. . . . The court’s review of
public necessity is limited to the question of
whether the taking of the particular property
sought to be condemned is reasonably

App. 19
suitable and usable for the authorized public
use. Much latitude is given to the
condemning authority to determine the
location and the extent of the property to be
acquired, and a taking is not objectionable
merely because some other location might
have been made or some other property
obtained that would have been as suitable for
the purpose. In the absence of bad faith,
gross abuse of discretion, or fraud by the
condemning authority in its determination
that the property sought is necessary for the
authorized use and is pursuant to specific
statutory authority, such determination
should not be disturbed by the courts.
[¶6] Behm’s primary issue in his cross-appeal is that
this Court has misinterpreted our earlier eminent
domain case law since the Wiese decision was rendered
in 1978. According to Behm, the problem was
exacerbated by dicta in Cent. Power Elec. Coop., Inc. v.
C-K, Inc., 512 N.W.2d 711, 714 n.2 (N.D. 1994), where
this Court said in the course of dismissing for lack of
jurisdiction, “[w]hen contested, necessity is generally
found unless the condemnor acted arbitrarily,
capriciously, in bad faith, or fraudulently.” Behm
argues earlier cases such as KEM Elec. Coop., Inc. v.
Materi, 247 N.W.2d 668 (N.D. 1976); Otter Tail Power
Co. v. Malme, 92 N.W.2d 514 (N.D. 1958); Bd. of Educ.
of City of Minot v. Park Dist., 70 N.W.2d 899 (N.D.
1955); and N. Pac. Ry. Co. v. Boynton, 17 N.D. 203, 115
N.W. 679 (1908), stand for the proposition that the
limited standard of review for bad faith, gross abuse of
discretion, or fraud committed by the condemnor

App. 20
applies only to the extent of a proposed taking and not
to the necessity of the taking. Behm urges that we
adopt an expanded judicial review of the necessity of
taking so condemnors cannot “use any presumption or
standard of proof to [countenance] a taking that is not
first fully justified as necessary and for a proper public
use.” To the extent he is not simply misreading our
cases, Behm has not provided persuasive reasons for us
to depart from the reasoning in more than 40 years of
our precedent.
A
[¶7] Section 32-15-05(1), N.D.C.C., requires that before
property can be taken from a landowner, it must
appear “[t]hat the use to which it is to be applied is a
use authorized by law.” MDU argues the district court
correctly ruled that its proposed taking is for a public
use authorized by law. Behm contends the district
court did not find that the proposed taking was for a
public use authorized by law, but instead that the
taking was for the mere convenience of a single user,
BNSF. We interpret Behm’s argument to be that the
court erred in ruling the proposed taking was for a
public use.
[¶8] The Century Code authorizes exercise of eminent
domain for the following public uses:
Oil, gas, coal, and carbon dioxide pipelines and
works and plants for supplying or conducting
gas, oil, coal, carbon dioxide, heat, refrigeration,
or power for the use of any county, city, or the
inhabitants thereof, together with lands,
buildings, and all other improvements in or upon

App. 21
which to erect, install, place, maintain, use, or
operate pumps, stations, tanks, and other
machinery or apparatus, and buildings, works,
and plants for the purpose of generating,
refining, regulating, compressing, transmitting,
or distributing the same, or necessary for the
proper development and control of such gas, oil,
coal, carbon dioxide, heat, refrigeration, or
power, either at the time of the taking of said
property or for the future proper development
and control thereof.
N.D.C.C. § 32-15-02(10) (emphasis added); see also
N.D.C.C. § 32-15-02(4) (including as “public uses” both
“railroads” and “pipes for public transportation”).
[¶9] Where a property owner contests “public use”
under N.D.C.C. ch. 32-15, “there is a presumption a use
is public when the Legislature has declared it to be and
we treat the Legislature’s decision with the deference
due a coordinate branch of government.” City of
Medora v. Golberg, 1997 ND 190, ¶ 8, 569 N.W.2d 257.
Nevertheless, “the ultimate decision regarding whether
a proposed use of property is, in fact, a public use is a
judicial question.” Id. “Private property may not be
taken for the use of, or ownership by, any private
individual or entity, unless that property is necessary
for conducting a common carrier or utility business.”
N.D.C.C. § 32-15-01(2). Where, as here, eminent
domain is exercised by a utility business,
“[c]ondemnation for service to a single industrial
customer does not forestall a finding that the taking is
for a public use.” United States ex rel. Tenn. Valley
Auth. v. An Easement and Right-of-Way Over 1.8 Acres

App. 22
of Land, More or Less, in Maury Cty., Tenn., 682 F.
Supp. 353, 358 (M.D. Tenn. 1988); see also Carolina
Tel. and Tel. Co. v. McLeod, 364 S.E.2d 399, 401 (N.C.
1988); Dyer v. Tex. Elec. Serv. Co., 680 S.W.2d 883, 885
(Tex. Ct. App. 1984); 2A J. Sackman, Nichols on
Eminent Domain § 7.05[4][a] (3rd ed. 2018).
[¶10] MDU, the condemnor, and BNSF, the customer
it intends to serve, are both “a common carrier or
utility business.” N.D.C.C. § 32-15-01(2). It is only
MDU’s use of the easement to pipe gas, not that of its
customer BNSF to heat its switch with the gas, that is
relevant to the public use determination here. MDU’s
proposed pipeline to supply natural gas to BNSF for
the purpose of heating the railroad switch is for a
public use because MDU is a public utility, even though
the portion of the pipeline at issue here is intended to
serve only a single customer. The district court
correctly concluded the “proposed pipeline is . . . a use
authorized by Section 32-15-02, NDCC.”
B
[¶11] MDU argues the district court erred in ruling the
proposed taking of Behm’s property was not necessary
for the public use but was of “mere convenience to
MDU.” Before property may be taken for a use
authorized by law, “it must appear . . . [t]hat the taking
is necessary to such use.” N.D.C.C. § 32-15-05(2);
N.D.C.C. § 32-15-01(2) (“Private property may not be
taken for the use of, or ownership by, any private
individual or entity, unless that property is necessary
for conducting a common carrier or utility business.”).

App. 23
[¶12] In support of its decision, the district court relied
on an 1883 California Supreme Court decision, Spring
Valley Water-Works v. San Mateo Water-Works, 28 P.
447 (Cal. 1883), in which the court affirmed a decision
refusing to allow a water corporation to condemn 28
acres of land:
Private property, contiguously situated to the
works of a corporation, may be very convenient
for its corporate purpose, and the acquisition of
the same might add to the wealth of the
corporation by enhancing the value of the
property which it has in hand, and yet not be
reasonably necessary to the corporation in the
discharge of its duty to the public. “For public
uses the government has the right to exercise its
power of eminent domain and take private
property, giving just compensation; but for
public convenience it has not. A public
convenience is not such a necessity as authorizes
the exercise of the right of eminent domain. The
taking of private property for public uses is in
derogation of private right, and in hostility to
the ordinary control of the citizen over his
estate, and statutes authorizing its
condemnation are not to be extended by
inference or implication.”
Id. at 449. Here, the district court reasoned that no
necessity was shown because a pipeline crossing
Behm’s property would only serve the convenience of
MDU, which could select an alternative route for the
pipeline, and the convenience of BNSF, which could
continue to heat its railroad switch with propane.

App. 24
[¶13] The district court’s analysis of the necessity of the
public use is inconsistent with North Dakota law.
Unlike in Spring Valley Water-Works, the easement
sought by MDU is not a taking for “mere convenience.”
In Materi, 247 N.W.2d at 671-72, we held that a
showing of customer convenience in uninterrupted
electric service and the condemnor’s convenience and
safety in construction and maintenance was sufficient
to render reasonable a conclusion in favor of a taking’s
necessity. In Spring Valley Water-Works the court
found it relevant to the necessity analysis “that it was
entirely practicable for the plaintiff to construct on its
own land, just above the land of defendant, the
improvement for which it seeks to condemn the
defendant’s land.” 28 P. at 450. In contrast, MDU does
not own adjacent land on which it could construct a
pipeline. We have held that “a taking is not
objectionable merely because some other location might
have been made or some other property obtained that
would have been as suitable for the purpose.” Brandt,
2018 ND 26, ¶ 11, 905 N.W.2d 764 (quoting Wiese, 265
N.W.2d at 700) (emphasis added).
[¶14] A “court’s review of public necessity is limited to
the question of whether the taking of the particular
property sought to be condemned is reasonably suitable
and usable for the authorized public use.” Brandt, 2018
ND 26, ¶ 11, 905 N.W.2d 764 (quoting Wiese, 265
N.W.2d at 700). In C-K, Inc., 512 N.W.2d at 714, n.2,
we said:
While we have said before that “landowner[s]
may not object merely because some other
location might have been made or some other

App. 25
property obtained that would have been as
suitable for the purpose,” KEM, 247 N.W.2d at
671, citing to Otter Tail Power Co. v. Malme, 92
N.W.2d 514, 521 (N.D. 1958) (emphasis ours),
we have not held that this proposition stands
when the property chosen for the route is less
suitable. In light of the growing body of case law
in the area of electromagnetic fields, see 8A
Nichols, Eminent Domain ch. 26 (3d ed.),
Landowners in this case may have a valid
argument that alternate routes benefit the
public with less private injury.
[¶15] Behm proposed two alternative routes for the
pipeline. The first would run through BNSF’s current
east-west railroad easement. The second would run
along a north-south section line right of way adjacent
to the route selected by MDU. MDU presented evidence
that the first alternative route would add 18,000 feet of
pipeline to the project at an additional cost of
$1,200,000. The second alternative route would result
in MDU’s easement being subordinate to the public’s
section line right-of-way easement with MDU being
forced to accommodate at its expense any conflicts that
might arise. We have acknowledged it is reasonable for
a condemnor to consider possible future development in
determining whether the property sought to be
condemned is reasonably suitable for the project.
Malme, 92 N.W.2d at 522 (“Experience had
demonstrated that the location of the line far enough in
on the land of the owner to avoid the necessity of
moving the line in case of widening or the relocation of
a road or highway was advantageous.”). The
determination of necessity must always balance the

App. 26
burden on the affected landowner and the benefit of the
public use. A risk of future development or conflict with
prior easements is one factor that may be considered.
Although the particular property sought to be
condemned “must be located in the manner which will
be compatible with the greatest public benefit and the
least private injury,” N.D.C.C. § 32-15-06, Behm has
not demonstrated how MDU erred in weighing those
interests.
[¶16] The district court’s belief that the pipeline was
unnecessary because BNSF could continue to heat the
railroad switch with propane erroneously focuses on
the customer’s necessity rather than the public utility’s
necessity. Whether a project is necessary at all,
including the “condemning authority’s determination to
exercise the power of eminent domain for an authorized
public use[,] is a legislative question which is not
subject to judicial review.” Brandt, 2018 ND 26, ¶ 12,
905 N.W.2d 764. The necessity inquiry under N.D.C.C.
§ 32-15-05(2) turns on whether the particular property
proposed to be taken is necessary for the public use, not
whether the authorized public use is itself necessary.
Section 49-04-01, N.D.C.C., provides:
Every public utility shall furnish, provide,
and maintain such service, instrumentalities,
equipment, and facilities as shall promote the
safety, health, comfort, and convenience of its
patrons, employees, and the public, and as shall
be in all respects adequate, convenient, just, and
reasonable, and without any unjust
discrimination or preference.

App. 27
The court’s consideration of BNSF’s preference for gas
by pipeline to heat its railroad switch misapplied the
law. It is the necessity of MDU, not that of BNSF that
is the proper consideration. To the extent that we have
considered the members of the public served by the
condemnor’s proposed public use, we have said
“convenience to the public becomes a necessity for the
board of education in establishing a junior high school.”
Bd. of Educ. of City of Minot, 70 N.W.2d at 906.
[¶17] Ultimately, it appears the district court
substituted its judgment for that of the condemning
authority. “In the absence of bad faith, gross abuse of
discretion, or fraud by the condemning authority in its
determination that the property sought is necessary for
the authorized use and is pursuant to specific statutory
authority, such determination should not be disturbed
by the courts.” Brandt, 2018 ND 26, ¶ 11, 905 N.W.2d
764 (quoting Wiese, 265 N.W.2d at 700). Behm did not
establish that MDU acted in bad faith, grossly abused
its discretion, or committed fraud in determining
whether its chosen route across Behm’s property was
reasonably suitable in terms of the greatest public
benefit and the least private injury.
[¶18] We conclude the district court erred in ruling
MDU’s proposed taking was not necessary for a public
use.
III
[¶19] Behm lists ten issues in his cross-appeal but does
not specifically address any of them in his brief. We do
not address inadequately briefed issues. See, e.g., State
v. Nice, 2019 ND 73, ¶ 11, 924 N.W.2d 102. We reverse

App. 28
the judgment and remand for trial on eminent domain
damages to be awarded to Behm.
[¶20] Jerod E. Tufte
Jon J. Jensen
Carol Ronning Kapsner, S.J.
Daniel J. Crothers, Acting C.J.
[¶21] The Honorable Carol Ronning Kapsner,
Surrogate Judge, sitting in place of VandeWalle, C.J.,
disqualified. The Honorable Lisa Fair McEvers
disqualified herself subsequent to oral argument and
did not participate in this decision.

App. 29

APPENDIX D
IN THE SUPREME COURT
STATE OF NORTH DAKOTA
Supreme Court No. 20180321
Ward County Case No. 2016-CV-01678
[Filed June 7, 2019]
____________________________________________
Montana-Dakota Utilities Co., a
Division of MDU Resources Group, Inc.,
n/k/a Montana-Dakota Utilities Co., a
Subsidiary of MDU Resources Group, Inc.,
Plaintiff, Appellant, and Cross-Appellee

)
)
)
)
)
)
v.
)
)
Lavern Behm,
)
Defendant, Appellee, and Cross-Appellant
)
____________________________________________ )
Appeal from the district court for Ward County.
JUDGMENT
[¶1] This appeal having been heard by the Court at the
February 2019 Term before:
[¶2] Acting Chief Justice Daniel J. Crothers, Justice
Jerod E. Tufte, Justice Jon J. Jensen, and Surrogate
Judge Carol Ronning Kapsner, sitting in place of Chief
Justice Gerald W. VandeWalle. Justice Lisa Fair

App. 30
McEvers disqualified herself subsequent to oral
argument and did not particpate in the decision.
[¶3] and the Court having considered the appeal, it is
ORDERED AND ADJUDGED that the judgment of the
district court is REVERSED and REMANDED for
further proceedings consistent with the opinion.
[¶4] IT IS FURTHER ORDERED AND ADJUDGED
that Montana-Dakota Utilities Co., a Division of MDU
Resources Group, Inc., n/k/a Montana-Dakota Utilities
Co., a Subsidiary of MDU Resources Group, Inc., have
and recover from Lavern Behm costs and
disbursements on this appeal wider Rule 39,
N.D.R.App.P., to be taxed and allowed in the court
below.
[¶5] This judgment, together with the opinion of the
Court filed this date, constitutes the mandate of the
Supreme Court on the date it is issued to the district
court under N.D.R.App.P. 40.
Dated: May 16, 2019
By the Court:
/s/
Acting Chief Justice
[SEAL]
ATTEST:
/s/ Penny Miller
Clerk

App. 31

APPENDIX E
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT
NORTH CENTRAL JUDICIAL DISTRICT
CASE NO. 51-2016-CV-01678
[Filed July 20, 2018]
_______________________________________
Montana-Dakota Utilities Co., a
)
Division of MDU Resources Group, Inc., )
)
Plaintiff,
)
)
vs.
)
)
Lavern Behm,
)
)
Defendant.
)
_______________________________________)
JUDGMENT
Based on the Order to Dismiss with Prejudice signed by
the Honorable Gary H. Lee dated May 29, 2018,
Docket No. 65, IT IS HEREBY ORDERED AND
ADJUDGED:
¶1 The above action is one for eminent domain by a
public utility.

App. 32
¶2 The plaintiff, Montana-Dakota Utilities Co., a
Division of MDU Resources Group, Inc., hereafter
MDU, seeks to acquire an easement across the
property of the defendant, Lavern Behm, to construct
a natural gas pipeline. The Court bifurcated the case to
first determine the necessity of the taking, and if
necessity is established a second hearing would be held
to determine damages.
¶3 The Court finds that MDU has failed to show a
necessity for this taking, and the action is
DISMISSED.
¶4 A trial was held on the necessity of the proposed
taking on April 17, 2018, in the District Court, North
Central Judicial District, Ward County, Minot, North
Dakota. The plaintiff, MDU, appeared and was
represented by counsel, Malcolm Brown, Bismarck,
North Dakota; the defendant, Lavern Behm, appeared
and was represented by counsel, Lynn Boughey,
Bismarck, North Dakota. Gary H. Lee, District Judge,
presided.
FACTS
¶5 Lavern Behm owns agricultural land in Ward
County, Section 16, 155 N., 84 W. The land is bounded
on the west side by a gravel township road, commonly
referred to as 128th Street Northwest. The land is cut,
generally east to west, by a Burlington Northern Santa
Fe railroad right-of-way. Along the southern edge of
the property MDU maintains a pipeline running
generally east to west.
¶6 Burlington Northern Santa Fe maintains and
operates a switch on its-right-of-way. In order to keep

App. 33
the switch operating in the winter months, Burlington
Northern Santa Fe must keep the switch heated so that
it is free of ice and snow. Presently, this is done by a
propane heater. Propane tanks are located near the
property. The propane tanks need to be filled and
serviced periodically.
¶7 To obviate the continued need to service and fill the
propane tanks MDU proposes to place a buried pipeline
of “4 inch poly and 4 inch steel” from existing pipeline
at the southern border of the property. The pipeline
would run approximately 3000 feet, south to north,
from the existing MDU pipeline, to the site of the
Burlington Northern Santa Fe switches. The pipeline
would run entirely beneath property owned by Lavern
Behm.
¶8 Testimony and exhibits at trial demonstrate that
MDU has obtained all necessary permits and approvals
from State and federal governmental agencies for the
pipeline.
¶9 Through the exercise of its powers of eminent
domain, MDU proposes to take an easement and place
its pipeline on the land owned by Lavern Behm. Lavern
Behm objects to the taking.
ANALYSIS
¶10 Eminent domain is the right to take private
property for public use. Section 32-15-02 (1), NDCC.
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless
the property is necessary for conducting a common
carrier or utility business. Article 1, Section 16, ND
Const.; and Section 32-15-01 (2), NDCC.

App. 34
¶11 MDU is a public utility which provides natural gas
and electric services to customers in a four state area,
including North Dakota. Montana-Dakota Utilities Co.,
v. Public Service Commission of the State of North
Dakota, 413 NW2d 308 (ND 1987).
¶12 Under Section 32-15-05, NDCC, before property
can be taken it must appear:
1. That the use to which it is to be applied is a
use authorized by law, and
2. That the taking is necessary to such use.
¶13 The public uses for which the power of eminent
domain may be exercised are listed in Section 32-15-02,
NDCC. Subsection 4 of that section provides:
Subject to the provisions of this chapter, the
right of eminent domain may be exercised in
behalf of any of the following public uses:
Wharves, docks, piers, chutes, booms, ferries,
bridges, toll roads, by roads, plank and turnpike
roads, railroads and street railways, electric
light plants and power transmission lines and
canals, ditches, flumes, aqueducts, and pipes for
public transportation, supplying mines and
irrigating, draining, and reclaiming lands.
¶14 The purpose of the proposed pipeline in this case is
to carry natural gas to heat the Burlington Northern
Santa Fe switch. The proposed pipeline is, therefor, a
use authorized by Section 32-15-02, NDCC.
¶15 The inquiry under Section 32-15-05, NDCC, does
not, however, stop with a determination that a

App. 35
proposed taking is for a public use. The Section also
requires that a taking be necessary for the public use.
¶16 The rule in North Dakota regarding the question
of necessity derives from the 1896 case, Bigelow v.
Draper, 6 ND 152, 69 NW 570 (1896). In that case, the
North Dakota Supreme Court “determined that the
legislature had seen fit to take it out of the power of the
person or corporation to settle the question of necessity,
and to trust the determination of the issue to the
judicial branch of government.” Later, in the case of
Otter Tail Power C. v. Malme, 92 NW2d 514, (ND
19518), the North Dakota Supreme Court wrote: “. . . it
is nevertheless true that much latitude is given to the
corporation vested with the right of acquiring property
by eminent domain to determine the extent of the
property necessary to be taken.” Malme, 92 NW2d at
521. The North Dakota Supreme Court further stated
that a corporation vested with a right of acquiring
property for a public use is also entitled to the some
latitude in determining the selection and location of the
route for the proposed easement. Where the
corporation presents evidence showing the necessity for
the taking of property for its transmission lines, the
evidence indicates that the corporation vested with the
power exercised good faith and used its best judgment
in the selection of the route and the easement sought to
be taken. Finally, however, the selection of the route
must be compatible with the greatest public benefit
and the least private injury Malme, 92 NW2d at 522.
¶17 When contested, necessity is found unless the
condemner acted arbitrarily, capriciously, in bad faith,
or fraudulently. Central Power Electric Cooperative,

App. 36
Inc. v. K-C, Inc., 512 NW2d 711 (ND 1994). These
determinations are made by looking at whether the
route selected is compatible with the greatest public
benefit in the least private injury. KEM Electric
Cooperative, Inc. v. Materi, 247 NW2d 668, (ND 1976).
¶18 The Court believes, however, that necessity cannot
mean mere convenience. Although a very old authority,
the Court notes the case of Spring Valley Waterworks
v. San Mateo Waterworks, 64 Cal. 123, 28 P 447 (1883),
in which the California Supreme Court wrote:
Private property, contiguously situated to the
works of a corporation, may be very convenient
for its corporate purpose, and the acquisition of
the same might add to the wealth of the
corporation by enhancing the value of the
property which it has in hand, and yet not be
reasonably necessary to the corporation in the
discharge of its duty to the public. For public
uses the government has the right to exercise its
power of eminent domain and take private
property, giving just compensation; but for
public convenience it has not. A public
convenience is not such a necessity as authorizes
the exercise of the right of eminent domain. The
taking of private property for public uses is in
derogation of private right, and in hostility to
the ordinary control of the citizen over his
estate, and statutes authorizing its
condemnation are not to be extended by
inference or implication.
The California Supreme Court further wrote that the
word “necessity” has a great flexibility in its meaning.

App. 37
It can mean a taking that is a mere convenience, or a
taking that is indispensably necessary. The Court held
that a taking for mere convenience was not authorized.
As noted in North Dakota, necessity requires a
balancing of the greatest public good against the least
private injury. Central Power Electric Cooperative, Inc.
v. C-K. Inc., 512 NW2d 711 (ND 1994).
¶19 MDU’s proposal is to place a 3000 foot pipeline
beneath Lavern Behm’s property for the benefit of a
single user, Burlington Northern Santa Fe. While it is
certainly not subject to dispute that maintaining
railway switches is a necessity to the safe operations of
the railroad, the construction of this pipeline is not
necessary for this purpose. The current switch has
been, and can continue to be maintained through the
use of propane. The proposed pipeline serves only the
convenience of a single user, Burlington Northern
Santa Fe, while imposing a permanent restriction on
Lavern Behm’s use of his private property.
¶20 The location of the proposed pipeline further
stretches the meaning of necessity to mean mere
convenience to MDU. That convenience is not even a
present convenience, but one of a future, highly
speculative convenience.
¶21 128th Street Northwest runs down the section line.
As such, the standard 66 foot easement exists (33 feet
on each side of the section line). The proposed pipeline
easement starts at 33 feet from the section line, and is
10 feet wide. The pipeline runs down the middle of this
10 foot easement, a mere 38 feet from the section line,
and but 5 feet from the end of the statutory section line

App. 38
right-of-way. The pipeline is to run entirely beneath
Lavern Behm’s farmland.
¶ 22 MDU’s District Manager, Curtis Olson, testified
He stated he was somewhat involved in the project, but
had never even visited the site. He agreed that MDU
had only minimal discussions or negotiations with
Lavern Behm regarding the placement of the pipeline.
MDU did not attempt to place the pipeline within the
existing 33 foot section line right-of-way. Olson stated
that he had no discussions with local township officers
regarding any proposal to place the pipeline within the
33 foot section line right-of-way. Nor did he have any
discussions with township officials regarding any plans
for future changes or improvements to 128th Street
Northwest. The bottom line from this testimony
appears to be that MDU considered no other options
regarding the placement of the pipeline other than
across and beneath Lavern Behm’s property.
¶23 When questioned why the proposed route was
chosen (a mere 5 feet away from the existing section
line right-of-way) and not a possible route within the
33 foot section line right-of-way, Olson stated that if
128th Street Northwest was ever improved, MDU would
have to bear the cost of any movement or replacement
of the pipeline.
¶24 The proposed taking a Lavern Behm’s property for
the purpose of this pipeline is thus premised on a
project to benefit a single user, Burlington Northern
Santa Fe. It is to be placed on Lavern Behm’s property,
a mere 5 feet from the existing 33 foot section line right
away. That placement is deemed necessary by MDU
based on the speculative fear of a future event which

App. 39
may never occur, and even if it does, may not
necessitate the repair or replacement of the pipeline.
The necessity proposed by MDU is nothing more than
its own mere convenience.
¶25 Contrasted to this are Lavern Behm’s rights to own
his property and to farm or otherwise develop it as he
sees fit, without the burden of this easement. The
burden on Lavern Behm is immediate and permanent
as opposed to the uncertain and speculative necessity
argued by MDU.
¶26 The Court therefore finds that the proposed taking
and pipeline route is not compatible with the greatest
public benefit when weighed against the immediate
and permanent private injury to Lavern Behm.
¶27 The Court further finds that MDU’s decision is
arbitrary and capricious. A decision is arbitrary or
capricious if it is not the product of a rational mental
process by which the law and facts are relied upon and
considered together for achieving a reasoned and
reasonable interpretation. Grand Folks Housing
Authorities v. Grand Forks Board of County
Commissioners, 2010 ND 245, 793 NW2d 168.
¶28 In this case it appears as if MDU looked only at its
own convenience when it determined to take this
pipeline easement. The decision was based on the sheer
speculation of what might, or might not occur at some
unknown future date, and which might impose some
unknown and uncertain future cost. MDU did not
consider at all the private injury its pipeline would
impose on Lavern Behm and his property. This onesided analysis by MDU, resolving all uncertainties and

App. 40
speculations in its favor, and without consideration of
Lavern Behm’s rights of ownership is arbitrary and
capricious.
¶29 The issue of just compensation need not be
addressed. Based on the Order on attorney fees signed
by the Honorable Gary H. Lee on July 14, 2018,
Docket No. 86, IT IS HEREBY ORDERED AND
ADJUDGED:
¶30 The above action was one for eminent domain.
¶31 Following a bench trial, the Court issued its Order
denying the proposed taking. The Order was issued on
May 29, 2018.
¶32 The defendant, Lavern Behm, has made a motion
to recover attorney’s fees and costs incurred in
defending this action. The plaintiff, Montana-Dakota
Utilities Company, hereafter MDU, has responded to
the motion. Neither party requested a hearing in the
matter.
¶33 The Court hereby awards attorney’s fees in the
sum of$22,100, plus costs of $50, filing fee.
ANALYSIS
¶34 Section 32-15-32, NDCC, provides in part:
The court may in its discretion award to the
defendant reasonable actual or statutory costs or
both, which may include reasonable attorney’s
fees for all judicial proceedings.

App. 41
Lavern Behm, as the defendant in this action, is
entitled to the recovery of his attorney’s fees and costs
pursuant to this Section.
¶35 The factors which the Court may consider when
making an award of attorney’s fees in an eminent
domain proceeding are found in City of Bismarck v.
Thom, 261 NW2d 640 (ND 1977); and North Dakota
Department of Transportation v. Rosie Glow, LLC,
2018 ND 123,911 NW2d 334. Both cases make clear
that the predominant factors for determining
reasonable attorney’s fees are the number of hours
spent, and the rate per hour charged for those fees. The
hourly rate may be adjusted upwards or downwards
based on objective evaluation of the complexity and
novelty of the litigation, the degree of skill displayed by
the lawyer, customary fees charged in the area, and
other factors. All factors must be considered, and no
single factor is determinative.
TIME SPENT
¶36 Attorney Lynn Boughey, counsel for Lavern Behm,
has submitted three billing statements which he
presented to his client during the course of this
litigation. The statements are broken down by date,
followed by a brief description of the work performed,
and lastly the amount of time spent on the task. The
statements are reasonably detailed, and provide the
Court with a fairly clear picture of the services
rendered, and the time spent.
¶37 MDU does not take serious issue with the work or
the billing statements as presented. The Court

App. 42
however, will do its own independent review of the
statements to determine if they are reasonable.
¶38 At the outset, most of the itemizations appear to be
reasonable, and related to the preparation of the case
for trial. The itemizations include conferences with the
client, drafting pleadings, reviewing applicable law,
consultations with opposing counsel, and other efforts
reasonably necessary to move the case forward. The
Court does not note any item which might appear to
have required an unreasonably excessive amount of
time.
¶39 There are, however, a number of entries which the
Court will disallow.
¶40 Entries 10-4-16, and 10-5-16, involve contacts
between attorney Boughey and Robert Hale. Robert
Hale is a total stranger to these proceedings. Further,
the contacts appear to have taken place before attorney
Boughey had any contact with Lavern Behm. Contacts
between attorney Boughey and a third person stranger
to this litigation will not be allowed. .3 hours.
¶41 Entry 10-10-16, involves a contact between
attorney Boughey and a Minot law firm. While not
entirely clear from the entry, it appears that Lavern
Behm may have either been a client of the Minot law
firm, or there was some question whether Lavern
Behm would be retaining the Minot firm or attorney
Boughey. Regardless, the contact between attorney
Boughey and the Minot law firm to determine
representation of Lavern Behm is not a legal service
advancing the cause. The entry is disallowed .5 hours.

App. 43
¶42 Entries 10-20, and 10-22, note communications
between attorney Boughey and his staff regarding the
payment of a retainer fee, and the deposit of that fee.
Keeping track of retainers is a mere office function and
is nothing more than part of an attorney’s overhead. It
does not constitute legal work.
¶43 Fees are not recoverable for clerical or secretarial
activities such as file review, file maintenance,
scheduling, or other routine matters. Youngblood v.
Youngblood, 91 So3d 190 (Ct of App., 2d Dist. Fla
2012). Work by support staff must be substantive.
Copying and other secretarial tasks are not recoverable
as attorney’s fees. Taylor v. the Chubb Group of
Insurance Companies, 1994 OK 47, 874 P2d 806.
Routine office work is deemed overhead, and should
already be reflected in a lawyer’s hourly rate. Hawaii
Ventures, LLC v. Otaka, Inc., 116 Hawaii 465, 173 P3d
1122 (2007). .2 hours or disallowed.
¶44 For the reasons stated above, entries for 10-31-16,
11-to-16, 11-10-16, 12-5- 16, 1-3-17, 3-14-17, 3-15-17, 411-17, 7-6-17, 12-3-17, and 4-3-18 likewise appear to be
mere ministerial activities involving staff emails,
routine filings, and other clerical or secretarial
activities. 1.4 hours are disallowed.
¶45 Attorney Boughey has billed four hours for travel
time. Generally, attorney travel costs and expenses
may not be taxed as costs. Braunberger v. Interstate
Engineering, 2000 ND 45,607 NW2d 904. Section 3215-32, NDCC, allows reasonable attorney’s fees for all
judicial proceedings. One does not perform legal
services when traveling. One is not engaged in a
judicial proceeding when traveling. Further, attorney

App. 44
Boughey knew from the outset that he was taking a
case beyond his home jurisdiction. He accepted the
responsibility for travel when he took on the case.
Regardless of any agreement attorney Boughey may
have had with Lavern Behm regarding these costs, it is
not appropriate to make MDU carry that burden and
pay for the extra time attorney Boughey assumed when
he agreed to take the case outside of his home
jurisdiction. The four hours of travel time, 4- 16-18, and
4-17-18, are disallowed.
¶46 After review of the billing statement submitted,
the Court disallows 6.4 hours.
¶47 Attorney Boughey has listed 74.4 hours. After the
adjustments made above, the Court will approve 68
hours as attorney Boughey’s reasonable time spent in
this action.
HOURLY RATES
¶48 The next step in the analysis is determine the
hourly rate for attorney Boughey. This rate may be
adjusted upwards or downwards depending upon the
applicability of the factors set forth in the Thom and
Rosie Glow decisions cited above.
Character of the Legal Services Rendered
¶49 Attorney Boughey was the sole attorney working
for Lavern Behm in this case. As a solo practitioner,
everything that was done to prepare this case for trial
was done by attorney Boughey. All pleadings, motions,
briefs, and other submissions to the Court were
handled by attorney Boughey. All Court appearances,
and the trial itself were handled exclusively by

App. 45
attorney Boughey. All contacts with opposing counsel,
the client, potential witnesses, and the Court had to be
done by attorney Boughey alone.
¶50 Attorney Boughey appears to have approached
these duties and tasks in a highly professional and
competent manner. The billing statements show that
he attended to the tasks in a cost-effective and efficient
fashion.
¶51 The services provided by attorney Boughey were
delivered with the highest level of professional skill.
This factor weighs in favor of increasing attorney
Boughey’s hourly rate.
Results Obtained
¶52 Justice Vogel wrote, in his dissent in Thom, that a
lawyer may spend a lifetime working for that one
magnificent hour. When that hour arrives he deserves
more than piecemeal compensation City of Bismarck v.
Thom, 261 NW2d 640 (ND 1977), J. Vogel, dissent.
While attorney Boughey may have had better days in
Court, and his one magnificent hour may not yet have
arrived, the result in this case would no doubt be
considered a good day for attorney Boughey and Lavern
Behm. The results obtained were positive and
substantial.
Complexity or Novelty of the Litigation
¶53 In most eminent domain cases the issue of
necessity never arises. Generally, the sole issue in an
eminent domain proceeding is just compensation for
the taking.

App. 46
¶54 In his brief in support of his motion for fees,
attorney Boughey cites to recent United States
Supreme Court authority to support his argument that
questioning the necessity of a taking, and standing up
to the often heavy-handed authority making the case
for an eminent domain taking, is a relatively new and
developing area of the law. The Court would tend to
agree. Indeed, the Court had to reach back more than
100 years to find an obscure California authority which
discussed a challenge to a private taking in any
meaningful fashion. (This may be more of a reflection
of the Court’s limited research ability than anything
else.)
¶55 Counsel for MDU relied upon North Dakota
authority in support of the taking. That authority
likewise was decades, if not a century old.
¶56 A challenge to the necessity of a taking may well
be a newly developing area of the law. There is
certainly a dearth of recent authority which stood out
to support Lavern Behm’s position. Attorney Boughey
made a strong and positive argument based on limited
to almost nonexistent legal authority. As President
Theodore Roosevelt once said, the credit goes to the
man in the arena; who spends himself in the worthy
cause; who at best knows in the end high achievement,
or at worst fails while daring; but, who is not numbered
among the timid souls who neither know victory, nor
defeat.
¶57 Attorney Boughey was willing to take on a cause
few have dared. Rather than simply focusing on just
compensation, he chose to fight the taking armed with
little legal authority, and not much more than Lavern

App. 47
Behm’s unwillingness to bend. Attorney Boughey, on
behalf of Lavern Behm, prevailed. All credit to the man
in the arena.
Customary Fees Charged in the Location
¶58 Attorney Boughey agreed to charge Lavern Behm
$250 per hour. This is not an excessive fee in this area
for an attorney with attorney Boughey’s years of
experience and reputation. The question is whether the
Court should raise that fee. As noted above, attorney
Boughey provided his legal services with the highest
degree of professionalism and competence. He worked
cost effectively and efficiently. He scored a total victory
for Lavern Behm in a somewhat novel and evolving
area law. When considering this, and the fees that
others are charging in this area, the Court believes
attorney Boughey is entitled to an increase in his
overall hourly rate.
¶59 Attorney Boughey argues that he should receive a
“Lodestar” increase of 50%. He billed his time at $250
per hour, but asked the Court to increase that to an
hourly rate of$375 (250x1.5).
¶60 MDU does not object to the $250 for our rate, but
suggest that no addition to that hourly rate is
necessary or appropriate.
¶61 There is some recent evidence which the Court will
take into account regarding the customary fees charged
in this region for eminent domain proceedings.
¶62 First, there is the North Dakota Department of
Transportation v. Rosie Glow LLC, 2018 ND 123,911
NW2d 334, decision cited by both parties. In that case,

App. 48
out-of-state attorneys from Oregon requested fees
based on an hourly rate of$300 per hour. The trial
court did not see fit to question that rate, but did
drastically reduce the number of hours approved for
counsel’s work. The North Dakota Supreme Court
reversed the trial court on the number of hours, but no
question was raised regarding the efficacy of the $300
per hour figure.
¶63 Irwin v. City of Minot, 51 2012 CV 691, see also,
Irwin v. City of Minot, 215 ND 60, 860 NW2d 849, was
an inverse condemnation action. At the conclusion of
the case Irwin’s counsel made a motion for attorney’s
fees. Counsel for Irwin, Minot attorney Richard P.
Olson, sought fees of$325 per hour. Judge Stacy J.
Louser reduced this rate to $275 per hour. She did so
for a number of reasons. First, attorney Olson is not a
litigator, nor is eminent domain his area of expertise.
Attorney Olson is a well-known and highly respected
banking and transactional attorney-not a litigator in
the field of eminent domain. Further, the case dragged
on for four years, required a trip to the North Dakota
Supreme Court, and in the end netted the Irwin’s only
$12,500 above the original offer. As Judge Louser
noted, this is far from a “strongvictory.”
¶64 Attorney Boughey enjoyed significantly greater
success in a substantially shorter period of time. His
fees for services should be at least equal to those of
attorney Olson under the circumstances.
¶65 In another matter, North Dakota Department of
Transportation v. Pennington, 31 2013 CV 94,
attorney’s fees were requested in an eminent domain
action. In that case, attorney Dennis Johnson, Watford

App. 49
City, filed an affidavit regarding customary fees.
Attorney Johnson stated that a fee of at least $300 per
hour was a customary and prevailing fee in Western
North Dakota for an eminent domain proceeding.
¶66 In that case, South Dakota attorney Mark
Meierhenry appeared for the landowner. Attorney
Meierhenry is a former Attorney General of South
Dakota. Attorney Meierhenry has appeared and argued
in the United States Supreme Court. He has broad
litigation and appellate experience. He is a nationally
recognized attorney in the field eminent domain.
Attorney Meierhenry billed his time at $360 per hour.
His partner, Clint Sargent, billed his time at $350 per
hour. The Court reduced both fees to $300 per hour,
based primarily upon the abysmal results obtained in
that case. A first trial ended in a mistrial. After a
second trial, the jury verdict was far below that which
was sought.
¶67 Attorney Boughey, who prevailed, should be at
least equal to these attorneys given the results of the
cases.
¶68 In another cause, North Dakota Department of
Transportation v. Stubstad, 31 2013 CV 105, attorneys
Meierhenry and Sargent were again counsel for the
landowner in an eminent domain proceeding. In that
case, the Court allowed attorney Meierhenry’s fees to
be charged at only $250 per hour. This was due to his
limited role in the litigation. However, attorney
Sargent’s fees were allowed at $325 per hour. This was
primarily due to a significantly better outcome in the
litigation.

App. 50
¶69 Attorney Boughey ought to be allowed an increase
in his fees due to the factors noted above, and which
would be further line with the fees charged in this area
by other attorneys in similar litigation. As the
prevailing party, and keeping in line with the
customary fees allowed in the area to a successful
litigant in an eminent domain proceeding, the Court
will allow an increase of attorney Boughey’s hourly rate
to $325 per hour.
¶70 Attorney’s fees of $22,100 are awarded ($325 X 68
hours).
¶71 Attorney’s fees, pursuant to Section 32-15-32,
NDCC, are allowed in the sum of$22,100.
¶72 Costs of$50, filing fee, are approved.
¶73 Counsel for Lavern Behm shall prepare the
appropriate Judgment for entry.
¶74 IT IS THEREFORE ORDERED:
¶75 [1.] The action by the [plaintiff], Montana-Dakota
Utilities Co.[.], is hereby DISMISSED, with prejudice
and with costs taxed and allowed according to law.
¶76 [2.] Plaintiff, Montana-Dakota Utilities Co., is
ordered to pay attorney fees in the amount of $22,100
and costs of $50 to Defendant Lavern Behm’s attorney
Lynn Boughey, for a total amount of $22,150. In the
event that MDU does not make payment within 21
days of entry of judgment, counsel for Lavern Behm is
authorized to either submit a monetary judgment that
will be entered by the clerk upon receipt or a motion to
compel payment.

App. 51
¶77 WITNESS the hand and seal of this Court, the
Honorable Gary H. Lee presiding, North Central
Judicial District, in the city of Minot, State of North
Dakota, on this 20th day of July, 2018, Clerk of the
District Court, County of Ward.
Signed: 7/20/2018 9:17:46 AM
/s/Darcy Duchsherer
Clerk of the District Court

App. 52

APPENDIX F
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT NORTH CENTRAL
JUDICIAL DISTRICT
Ward County Civil No. 51 2016 CV 1678
[Filed May 29, 2018]
_____________________________
Montana-Dakota Utilities Co., )
a Division of MDU Resources )
Group, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
Lavern Behm,
)
)
Defendant.
)
_____________________________ )
ORDER
[1] The above action is one for eminent domain by a
public utility.
[2] The plaintiff, Montana-Dakota Utilities Co., a
Division of MDU Resources Group, Inc., hereafter
MDU, seeks to acquire an easement across the
property of the defendant, Lavern Behm, to construct
a natural gas pipeline. The Court bifurcated the case to

App. 53
first determine the necessity of the taking, and if
necessity is established a second hearing would be held
to determine damages.
[3] The Court finds that MDU has failed to show a
necessity for this taking, the action is DISMISSED.
[4] A trial was held on the necessity of the proposed
taking on April 17, 2018, in the District Court, North
Central Judicial District, Ward County, Minot, North
Dakota. The plaintiff, MDU, appeared and was
represented by counsel, Malcolm Brown, Bismarck,
North Dakota; the defendant, Lavern Behm, appeared
and was represented by counsel, Lynn Boughey,
Bismarck, North Dakota. Gary H. Lee, District Judge,
presided
FACTS
[5] Lavern Behm owns agricultural land in Ward
County, Section 16, 155 N., 84 W. The land is bounded
on the west side by a gravel township road, commonly
referred to as 128th Street Northwest. The land is cut,
generally east to west, by a Burlington Northern Santa
Fe railroad right-of-way. Along the southern edge of
the property MDU maintains a pipeline running
generally east to west.
[6] Burlington Northern Santa Fe maintains and
operates a switch on its right-of-way. In order to keep
the switch operating in the winter months, Burlington
Northern Santa Fe must keep the switch heated so that
it is free office and snow. Presently, this is done by a
propane heater. Propane tanks are located near the
property. The propane tanks need to be filled and
serviced periodically.

App. 54
[7] To obviate the continued need to service and fill the
propane tanks MDU proposes to place a buried pipeline
of “4 inch poly and 4 inch steel” from the existing
pipeline at the southern border of the property. The
pipeline would run approximately 3000 feet, south to
north, from the existing MDU pipeline, to the site of
the Burlington Northern Santa Fe switches. The
pipeline would run entirely beneath property owned by
Lavern Behm.
[8] Testimony and exhibits at trial demonstrate that
MDU has obtained all necessary permits and approvals
from State and federal governmental agencies for the
pipeline.
[9] Through the exercise of its powers of eminent
domain, MDU proposes to take an easement and place
its pipeline on the land owned by Lavern Behm. Lavern
Behm objects to the taking.
ANALYSIS
[10] Eminent domain is the right to take private
property for public use. Section 32-15-02 (1), NDCC.
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless
the property is necessary for conducting a common
carrier or utility business. Article 1, Section 16, ND
Const.; and Section 32-15-01 (2), NDCC.
[11] MDU is a public utility which provides natural gas
and electric services to customers in a four state area,
including North Dakota. Montana-Dakota Utilities,
Co., v. Public Service Commission of the State of North
Dakota, 413 NW2d 308 (ND 1987).

App. 55
[12] Under Section 32-15-05, NDCC, before property
can be taken it must appear:
1. That the use to which it is to be applied is a use
authorized by law, and
2. That the taking is necessary to such use.
[13] The public uses for which the power of eminent
domain may be exercised are listed in Section 32-15-02,
NDCC. Subsection 4 of that section provides:
Subject to the provisions of this chapter, the
right of eminent domain may be exercised in
behalf of any of the following public uses:
Wharves, docks, piers, chutes, booms, ferries,
bridges, toll roads, by roads, plank and turnpike
roads, railroads and street railways, electric
light plants and power transmission lines and
canals, ditches, flumes, aqueducts, and pipes for
public transportation, supplying mines and
irrigating, draining, and reclaiming lands.
[14] The purpose of the proposed pipeline in this case
is to my natural gas to heat the Burlington Northern
Santa Fe switch. The proposed pipeline is, therefore, a
use authorized by Section 32-15-02, NDCC.
[15] The inquiry under Section 32-15-05, NDCC, does
not, however, stop with a determination that a
proposed taking is for a public use. The Section also
requires that a taking be necessary for the public use.
[16] The rule in North Dakota regarding the question
of necessity derives from the 18% case, Bigelow v.
Draper, 6 ND 152, 69 NW 570 (1896). In that case, the

App. 56
North Dakota Supreme Court “determined that the
legislature had seen fit to take it out of the power of the
person or corporation to settle the question of necessity,
and to trust the determination of the issue to the
judicial branch of government.” Later, in the case of
Otter Tail Power C., v. Malme, 92 NW2d 514, (ND
1958), the North Dakota Supreme Court wrote: “... it is
nevertheless true that much latitude is given to the
corporation vested with the right of acquiring property
by eminent domain to determine the extent of the
property necessary to be taken.” Malme, 92 NW2d at
521. The North Dakota Supreme Court further stated
that a corporation vested with a right of acquiring
property for a public use is also entitled to the some
latitude in determining the selection and location of the
route for the proposed easement. Where the
corporation presents evidence showing the necessity for
the taking of property for its transmission lines, the
evidence indicates that the corporation vested with the
power exercised good faith and used its best judgment
in the selection of the route and the easement sought to
be taken. Finally, however, the selection of the route
must be compatible with the greatest public benefit
and the least private injury. Malme, 92 NW2d at 522.
[17] When contested, necessity is found unless the
condemnor acted arbitrarily, capriciously, in bad faith,
or fraudulently. Central Power Electric Cooperative,
Inc. v. K-C, Inc., 512 NW2d 711 (ND 1994). These
determinations are made by looking at whether the
route selected is compatible with the greatest public
benefit in the least private injury. KEM Electric
Cooperative, Inc. v. Materi, 247 NW2d 668, (ND 1976).

App. 57
[18] The Court believes, however, that necessity cannot
mean mere convenience. Although a very old authority,
the Court notes the case of Spring Valley Waterworks
v. San Mateo Waterworks, 64 Cal. 123, 28 P 447 (1883),
in which the California Supreme Court wrote:
Private property, contiguously situated to the
works of a corporation, may be very convenient
for its corporate purpose, and the acquisition of
the same might add to the wealth of the
corporation by enhancing the value of the
property which it has in hand, and yet not be
reasonably necessary to the corporation in the
discharge of its duty to the public. For public
uses the government has the right to exercise its
power of eminent domain and take private
property, giving just compensation; but for
public convenience it has not. A public
convenience is not such a necessity as authorizes
the exercise of the right of eminent domain. The
taking of private property for pubic uses is in
derogation of private right, and in hostility to
the ordinary control of the citizen over his
estate, and statutes authorizing its
condemnation are not to be extended by
inference or implication.
The California Supreme Court further wrote that the
word “necessity” has a great flexibility in its meaning.
It can mean a taking that is a mere convenience, of a
taking that is indispensably necessary. The Court held
that a taking for mere convenience was not authorized.
As noted in North Dakota, necessity requires a
balancing of the greatest public good against the least

App. 58
private injury. Central Power Electric Cooperative, Inc.
v. C-K, Inc., 512 NW2d 711 (ND 1994).
[19] MDU’s proposal is to place a 3000 foot pipeline
beneath Lavern Behm’s property for the benefit of a
single user, Burlington Northern Santa Fe. While it is
certainly not subject to dispute that maintaining
railway switches is a necessity to the safe operations of
the railroad, the construction of this pipeline is not
necessary for this purpose. The current switch has
been, and can continue to be maintained through the
use of propane. The proposed pipeline serves only the
convenience of a single user, Burlington Northern
Santa Fe, while imposing a permanent restriction on
Lavern Behm’s use of his private property.
[20] The location of the proposed pipeline further
stretches the meaning of necessity to mean mere
convenience to MDU. That convenience is not even a
present convenience, but one of a future, highly
speculative convenience.
[21] 128th Street Northwest runs down the section line.
As such, the standard 66 foot easement exists (33 feet
on each side of the section line). The proposed pipeline
easement starts at 33 feet from the section line, and is
10 feet wide. The pipeline runs down the middle of this
10 foot easement, a mere 38 feet from the section line,
and but 5 feet from the end of the statutory section line
right-of-way. The pipeline is to run entirely beneath
Lavern Behm’s farmland.
[22] MDU’s District Manager, Curtis Olson, testified.
He stated he was somewhat involved in the project, but
had never even visited the site. He agreed that MDU

App. 59
had only minimal discussions or negotiations with
Lavern Behm regarding the placement of the pipeline.
MDU did not attempt to place the pipeline within the
existing 33 foot section line right-of-way. Olson stated
that he had no discussions with local township officers
regarding any proposal to place the pipeline within the
33 foot section line right-of-way. Nor did he have any
discussions with township officials regarding any plans
for future changes or improvements to 128th Street
Northwest. The bottom line from this testimony
appears to be that MDU considered no other options
regarding the placement of the pipeline other than
across and beneath Lavern Behm’s property.
[23] When questioned why the proposed route was
chosen (a mere 5 feet away from the existing section
line right-of-way) and not a possible route within the
33 foot section line right-of-way, Olson stated that if
128th Street Northwest was ever improved, MDU
would have to bear the cost of any movement or
replacement of the pipeline.
[24] The proposed taking a Lavern Behm’s property for
the purpose of this pipeline is thus premised on a
project to benefit a single user, Burlington Northern
Santa Fe. It is to be placed on Lavern Behm’s property,
a mere 5 feet from the existing 33 foot section line right
away. That placement is deemed necessary by MDU
based on the speculative fear of a future event which
may never occur, and even if it does, may not
necessitate the repair or replacement of the pipeline.
The necessity proposed by MDU is nothing more than
its own mere convenience.

App. 60
[25] Contrasted to this are Lavern Behm’s rights to
own his property and to farm or otherwise develop it as
he sees fit, without the burden of this easement The
burden on Lavern Behm is immediate and permanent
as opposed to the uncertain and speculative necessity
argued by MDU.
[26] The Court therefore finds that the proposed taking
and pipeline route is not compatible with the greatest
public benefit when weighed against the immediate
and permanent private injury to Lavern Boehm.
[27] The Court further finds that MDU’s decision is
arbitrary and capricious. A decision is arbitrary or
capricious if it is not the product of a rational mental
process by which the law and facts are relied upon and
considered together for achieving a reasoned and
reasonable interpretation. Grand Forks Housing
Authorities v. Grand Forks Board of County
Commissioners, 2010 ND 245, 793 NW2d 168.
[28] In this case it appears as if MDU looked only at its
own convenience when it determined to take this
pipeline easement. The decision was based on the sheer
speculation of what might, or might not occur at some
unknown future date, and which might impose some
unknown and uncertain future cost. MDU did not
consider at all the private injury its pipeline would
impose on Lavern Behm and his property. This onesided analysis by MDU, resolving all uncertainties and
speculations in its favor, and without consideration of
Lavern Behm’s rights of ownership is arbitrary and
capricious.

App. 61
[29] The issue of just compensation need not be
addressed.
[30] IT IS THEREFORE ORDERED:
[31] The action by the plaintiffs, Montana-Dakota
Utilities Co. et al., is hereby DISMISSED, with
prejudice and with costs taxed and allowed according
to law.
[32] Counsel for Lavern Behm shall prepare the
necessary Judgment.
[33] May 29, 2018
/s/Gary H. Lee
[34] H. Lee, District Judge

App. 62

APPENDIX G
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT NORTH CENTRAL
JUDICIAL DISTRICT
Ward County Civil No. 51 2016 CV 1678
[December 14, 2017]
_____________________________
Montana-Dakota Utilities Co., )
a Division of MDU Resources )
Group, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
Lavern Behm,
)
)
Defendant.
)
_____________________________ )
ORDER
[1] The above action is one for eminent domain.
[2] Both parties have made cross-motions for summary
judgment. Lavern Behm has requested oral argument
on the motions.
[3] All motions are DENIED.

App. 63
REQUEST FOR HEARING
[4] Ordinarily, when a party requests a hearing on a
motion pursuant to Rule 3.2, NDROC, the Court must
hold a hearing. Gosbee v. Martinson, 2008 ND App. 10,
701 NW2d 411. In this case, and for the reasons
outlined below, the Court deems a hearing to be
unnecessary.
SUMMARY JUDGMENT
[5] The standards for granting summary judgment in
North Dakota are well known, and will not be restated
at length. However, summary judgment may be
granted pursuant to Rule 56, NDRCivPro, when there
are no material issues of law or fact, and a party is
entitled to judgment as a matter of law. As the North
Dakota Supreme Court has written many times,
summary judgment is a procedural device for promptly
resolving controversy on the merits if there are no
genuine issues of material fact or inferences that can
reasonably drawn from disputed facts, or if resolving
the factual disputes will not alter the result. Hallin v.
Lyngstad, 2013 ND 168, 837 NW2d 888.
[6] A party moving for summary judgment has the
initial burden of establishing that there are no genuine
issues of material fact, and the moving party is entitled
to judgment as a matter of law. Farmers Mutual
Insurance v. Associated Electric and Gas, 2007 ND 135,
737 NW2d 253. The evidence must be viewed in a light
most favorable to the party opposing summary
judgment A party opposing summary judgment must
be given the benefit of all reasonable inferences to be

App. 64
drawn from the evidence. Hasper v. Center Mutual
Insurance, 2006 ND 220, 723 NW2d 409.
[7] A party opposing summary judgment may not rely
upon his pleadings or unsupported conclusory
allegations. A party opposing summary judgment must
present competent admissible evidence, by affidavit or
otherwise, that will raise the issue of material fact.
Ward v. Bullis, 2008 ND 80, 748 NW2d 397. A party
opposing summary judgment must serve and file a
responsive pleading or other documents within 30 days.
Rule 56, NDRCivPro. A failure to respond to a motion
for summary judgment may subject the non-responding
party to entry of an adverse judgment if it is
appropriate to do so. Rice v. Chrysler Motors, 198
NW2d 247 (ND 1972).
FACTS
[8] The facts of this case are relatively straightforward
Lavern Behm owns real property. To the north side of
his property the Burlington Northern Santa Fe
Railroad has a right-of-way for its railroad BNSF
maintains a switch nearby. That switch needs to be
heated and kept free of snow and ice for safe
operations.
[9] In the past, BNSF kept the switch free of snow and
ice by use of a propane heater. The propane was
supplied from nearby tanks. The tanks required
frequent filling, or replacement and other maintenance.
[10] To the south side of Lavern Behm’s property, MDU
maintains a natural gas line.

App. 65
[11] MDU seeks to use the power of eminent domain to
run a natural gas line beneath the surface of Lavern
Behm’s real estate. The pipeline would provide BNSF
with a steady supply of natural gas to heat the switch,
thereby relieving BNSF of the need to maintain,
replace, or fill the nearby propane tanks.
[12] Lavern Behm objects to the taking.
[13] If the taking is to occur, Lavern Behm seeks
damages as appropriate.
EMINENT DOMAIN
[14] Eminent domain is governed by Chapter 32-15,
NDCC. It is aright to take private property for a public
use. Section 32-15-01, NDCC.
[15] Among the many purposes for which the power of
eminent domain may be used are:
Oil, gas, coal, and carbon dioxide pipelines and
works and plants for supplying or conducting
gas, oil, coal, carbon dioxide, heat, refrigeration,
or power for the use of any county, city, or the
inhabitants thereof, together with lands,
buildings, and all other improvements in or upon
which to erect, install, place, maintain, use or
operate pumps, stations, tanks, and other
machine or apparatus and buildings, works, and
plans for the purposes of generating, refining,
regulating, compressing, transmitting, or
distributing the same...
Section 32-15-02 (10), NDCC.

App. 66
[16] MDU is a common pipeline carrier regulated by
Chapter 49-19, NDCC. As a common pipeline carrier,
MDU has the power of eminent domain. Section 14-1912, NDCC.
[17] In general terms, there are two questions to be
asked in an eminent domain proceeding: first, is the
taking of private property for a public purpose
necessary; and second, if so, what is the appropriate
amount of compensation to be paid to the landowner?
[18] The second question, compensation, is always a
fact question for the jury to determine. City of Devils
Lake v. Davis, 480 NW2d 720, (ND 1992). The first
question, however, the necessity of the taking, is triable
to the Court alone, without a jury. Northern Pacific
Railway Company v. Morton County, 131 NW2d 557
(ND 1964).
[19] MDU asserts that because it is a common pipeline
carrier and has the power of eminent domain, and
presumably because it falls within the ambit of Section
32-15-02 (10), NDCC and Section 49-19-12, NDCC, it
may take the property of Lavern Behm. This is not the
law. Merely falling into one of the purposes set forth in
Section 32-15-02, NDCC, is insufficient to satisfy the
requirements that the use must be necessary and
public before property may be taken by eminent
domain. Where the existence or nonexistence of the
necessary public use is placed in issue, the issue
becomes a fact question for the Court to determine.
Square Butte Electric Co-op v. Hilken, 244 NW2d 519
(ND 1976).

App. 67
[20] Before property can be taken it must appear that
the use to which it is to be applied is a use authorized
by law, and that taking is a necessary use. Section 3215-05, NDCC. In making this determination no single
factor is dispositive. Rather, the Court may consider
the cumulative effect of the benefits, and whether that
cumulative effect is sufficient to find a public use.
Square Butte, 244 NW2d 519, Syllabus of the Court,
paragraph five.
[21] The first question, whether the taking serves a
necessary public purpose, involves an issue of material
fact which cannot be determined on the basis of the
present motions for summary judgment. The obvious
consequence of that is that neither party may be
granted a summary judgment. There is no reason for
the Court to hold a hearing to reach this conclusion.
[22] A trial to the Court will need to be set to determine
whether the taking of Lavern Behm’s property by MDU
through a power of eminent domain is necessary for a
public use.
[23] IT IS THEREFORE ORDERED:
[24] The cross-motions for summary judgment are
DENIED.
[25] The request for a hearing on the motions for
summary judgment is DENIED.
[26] The Court will bifurcate the trial in this matter.
The case will first be heard by the Court to determine
the necessity of the taking for public use. If it is
determined that the action should then go forward, a

App. 68
second trial, before a jury, shall be scheduled to
establish appropriate compensation.
[27] The pretrial conference presently scheduled for
December 26, 2017, 9:00 AM, shall remain on the
calendar, and shall be used as a scheduling conference
to set discovery deadlines and trial dates. Counsel may
appear at the scheduling conference by telephone.
[28] December 14, 2017
/s/Gary H. Lee
[29] Gary H. Lee, District Judge

App. 69

APPENDIX H
[SEAL]
State of North Dakota
DISTRICT COURT
NORTH CENTRAL JUDICIAL DISTRICT
Ward County Courthouse
315 3rd St SE PO Box 5005
Minot ND 58702-5005
PRESIDING JUDGE
GARY H. LEE
(701) 857-6637

JUDICIAL REFEREE
CONNIE S.
PORTSCHELLER
(701) 857-6645

DISTRICT JUDGES
DOUGLAS L. MATTSON DISTRICT COURT FAX
(701) 857-6649
(701) 857-6635
RICHARD L. HAGAR
(701) 857-6639

SCHEDULING
(701) 857-6628

TODD L. CRESAP
(701) 857-6692

UNIT COURT
ADMINISTRATOR
CAROLYN PROBST
(701) 857-6625

STACY J. LOUSER
(701) 857-6633

NOTICE OF TRIAL

App. 70
Parties:

Counsel:

MONTANA-DAKOTA
UTILITIES CO. ET AL.

MALCOLM H BROWN

vs.
LAVERN BEHM

LYNN M BOUGHEY

Case No. 51-2016-CV-01678
The Court Trial in the above matter is scheduled for:
Date: April 17, 2018
Time: 9:00 AM
Place: Ward County Courthouse, Minot, North Dakota
Judge: Gary Lee
Time Set Aside: One day
Dated this 12th day of January, 2018

/s/Shannon Beck
Shannon Beck
Calendar Control Clerk
cc: Above Counsel (E-Served)

App. 71

APPENDIX I
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT NORTH CENTRAL
JUDICIAL DISTRICT
Civil No. 5-2016-CV-01678
[Filed September 7, 2016]
_____________________________
Montana-Dakota Utilities Co., )
a Division of MDU Resources )
Group, Inc.,
)
)
Plaintiff,
)
)
vs.
)
)
Lavern Behm,
)
)
Defendant.
)
_____________________________ )
COMPLAINT
Plaintiff, for its Complaint against the Defendant,
alleges as follows:
1. Montana-Dakota Utilities Co., a Division of
MDU Resources Group, Inc., a natural gas and electric
utility company, pursuant to the provisions of Chapter
32-15, N.D.C.C., intends to exercise the right of

App. 72
eminent domain to acquire an easement over and
across the following described real property:
Pipeline Easement located in the NW¼ of
Section 16, Township 155 North, Range 84 West
of the 5th PM, Ward County, North Dakota,
described as follows: The East 10 feet of the
West 43 feet of that portion of said NW¼ lying
southerly of the Burlington Northern Santa Fe
Railroad right of way.
Temporary Construction Easement located
in the NW¼, of Section 16, Township 155 North,
Range 84 West of the 5th PM, Ward County,
North Dakota, described as follows: The East 30
feet of the West 73 feet of that portion of said
NW¼ lying southerly of the Burlington Northern
Santa Fe Railroad right of way.
See attached exhibit.
2. Defendant is the record title owner of the lands
to be subject of the easement.
3. Plaintiff intends to acquire said easement for the
purpose of constructing a natural gas pipeline upon the
lands of the Defendant referred to above, and to place,
construct, reconstruct, use, operate, repair, inspect,
maintain, remove and replace thereon a line or system
for the purpose of distributing natural gas which is a
utility use and a public use pursuant to the provisions
of Chapter 32-15, N.D.C.C.
3. The easement shall be for a term of 99 years,
unless sooner terminated by Plaintiff.

App. 73
4. The easement shall also include the following
rights in favor of the Plaintiff:
(a)

An easement 10 feet in width, being 5 feet
left, and 5 feet right of the center line as laid
out and/or surveyed, or as finally installed
through, over, under and across the tract of
land hereinafter described, for the purpose of
installing and constructing thereon, and
thereafter to operate, inspect, protect,
maintain, repair, increase the capacity of,
remove, replace and abandon in place, a gas
pipeline or lines, including without limitation
necessary pipes, equipment and fixtures,
upon the above described tract of land.

(b)

Defendant agrees not to build, create or
construct or permit to be built, created, or
constructed, an obstruction, building,
engineering works or other structures upon,
over, or under the above described tract of
land or that would interfere with said
pipeline or lines or Plaintiff’s rights
hereunder. Plaintiff shall have the right, but
not the obligation, to cut and clear trees and
shrubbery from the above described tract of
land.

(c)

Plaintiff, its successors and assigns, shall
have the right at all reasonable times of
ingress and egress to the above described
premises across adjacent, lands of Defendant,
his successors and assigns, at convenient
points for the enjoyment of the aforesaid
uses, rights, and privileges.

App. 74
(d)

Plaintiff hereby agrees that it will pay any
and all damages that may result to the crops,
fences, buildings and improvements on said
premises caused by constructing,
reconstructing, inspecting, protecting,
maintaining, repairing, increasing the
capacity of, operating or removing said
pipeline or lines. The damages, if not
mutually agreed upon may be determined by
three disinterested persons, one to be
selected by Plaintiff and one by Defendant.

WHEREFORE, Plaintiff prays that the Court
determine that Plaintiff has the right to acquire the
property described herein for a public use; that the use
by the Plaintiff of said property is a public use; that the
amount of just compensation due the Defendant for his
interest in the real property be determined; and that
the Plaintiff have such other relief as to the Court
seems just.
Dated this 7th day of September, 2016.
CROWLEY FLECK PLLP
Attorneys for Plaintiff
100 West Broadway Avenue, Suite 250
P.O. Box 2798
Bismarck, ND 58502-2798
Tel. 701-224-7522
By:

/s/Malcolm H. Brown
Malcolm H. Brown (#02842)
mbrown@crowlcvfleck.com

App. 75
Christopher K. LeCates (#07554)
clecates@crowleyfleck.com

App. 76
PIPELINE EASEMENT FOR MONTANA-DAKOTA
UTILITIES CO., LOCATED IN THE NORTHWEST
QUARTER (NW 1/4) OF SECTION 16, TOWNSHIP
155 NORTH, RANGE 84 WEST OF THE 5TH P.M.,
WARD COUNTY, NORTH DAKOTA.
***
[Fold-Out Exhibit, see next page]

·!'-

•

,.
PIPELINE EASEMENT FOR MONTANA-DAKOTA UTILITIES CO., LOCATED IN THE

NORTHWEST QUARTER (NW 1/4) OF SECTION 16, TOWNSHIP 155 NORTH,
RANGE 84 WEST OF THE 5TH P.M., WARD COUNTY. NORTH DAKOTA.

GRAPHIC SCALE

N

w

( IN FEET )

E

inch

l

Nlf SEC COR.
SECTION 16
FOUND 1"

/

~

I

.. , . --

---

--

DESCRIPTION

!~ I

---·r1 --~ ---

11___ ,,..,,.

fI
I
i~1~ !I
f

I~

~ ~ I

I

$,

_.-, __..,_. .,

:_.,.,,..~]
I.--- i/1

- ,.,/ ----1I ~/,fJ/. ,:
I
I/;

1

33.00' ROAD ROW

~-~ -71

10.00' WIDE
W J
_P_IP_EL_l_N_E_EA_SE_-_ M-'-EN_T"--i--.-~~

I
30.CJO' WIDE TEMPORARY t

.MV ./
~ !

COll'STRUCTION EASEMENT
43.00'

73.00'

i

Propored By.

8ARTLE:T1()_J·--(J6NEST
~JI&\ E. Century A.a.

Blem<Jtck, North Ookotc '85D3
701-25/l-HlO

f,t,J( 701-~S-1111
www.bod.w.est.Mm

I

'' /

~//1

----+--i----,~{
I
I

The Eost l O fe<iit of the Wast 43 feet of that portion of
sold Northwest Qu.,r\er lying ~outh..rty of the Burlington.
Narthom Sonta i"e railrnod right of way (240 feet wlde).

The East JO feet of the We:il 73 feet of lhot portion of
said Northwest Quorter lying sau therty of the Burllngtan
Northern Santo Fe ranroad right af way (240 feet wide).

I

.....---

PJpellne Easement localed In the Northwe,rt Quarter (NW
1 /4) of Section 16, Ttiwn:ihip 155 North, Rongc M West
__ ... of the 5th P.M., Wwd Counly, North Dakota, describ"d 'as
follows:

Tf>mporary Censtruction Eos.. ment lecotad in the
Northwest Q~erter (NW 1/4) of Section 16, Tcwnahlp 155
North. Range 84 West of the 5th P.M., Word Caunly,
Narth Dakota, desc.ribed a~ follows:

I

i~

LEGEND

1

l

I

100 ft.

FOUND IRON MONUMENT,
SECTIOfVQUAR1ER CORNER

nWNnPE

~:

l

=

I

I /r
I,,

----·

SURVEYOR'S CERTIFICATE

I, Kevin J. Mortin, a Professional I.end Surveyor In on d
far the Stole of North Dckcte, do hereby ~rtlfy that ot
the request of Montonc-Dckola Utmtles Co., did on ar
.
prior to July Sth, 2016, survey the Pipeline Eoaement
lacotsd In the Northwest Quarter (NW 1/ 4} of Sectlcn 16,
Township 155 North, Ronge 84 West cf the 5th l".M., Word
Coun ly, North Dcketc.
:

I also hereby cei·tify thet this !:csemen t is a correct
representation of the surl/S)I, that alt dtstonces ere
correct and monumenta are ploced in the ground as
shown. ond thot thi" Easement Is ta the best of my
knawledge and belief. In all respects. o true del>Cl"lptlon of,
said property.
,
Dated this

2/ 'fi dcy af

7 t:'I&
Jf/:::\,
,,..,.r /•~

/

i

/-\·-,
'
.

Kevin J.

~'~n.

LS-7062

App. 77

APPENDIX J
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT NORTH CENTRAL
JUDICIAL DISTRICT
Case No. 51-2016-CV-01678
[Filed October 25, 2016]
_____________________________
Montana-Dakota Utilities Co., )
a Division of MDU Resources )
Group, Inc.,
)
)
Plaintiff,
)
)
vs.
)
)
Lavern Behm,
)
)
Defendant.
)
_____________________________ )
ANSWER AND COUNTERCLAIM
¶ COME NOW THE DEFENDANT, Lavern Behm
(Vern), by and through his counsel of record, Lynn
Boughey, and for his Answer and Counterclaim to the
Complaint of Montana-Dakota Utilities Co., a Division
of MDU Resources, Group, Inc. (MDU), who alleges and
states to the Court as follows:

App. 78
¶2 ANSWER
¶3 As to Para. 1 of the Complaint in which MDU
identifies itself and states its intention to acquire an
easement through eminent domain over and across the
listed property, ADMITS that MDU is a company that
is attempting to use eminent domain to acquire the
easement over and across the listed property, but
DENIES that the taking and proposed easement
should be granted or occur.
¶4 As to Para. 2 of the Complaint in which MDU
asserts that Vern is the record title owner of the
property at issue, Vern ADMITS that he is the record
title owner of the property at issue.
¶5 As to Para. 3 of the Complaint in which MDU
asserts it that it intends to acquire the easement for
the purpose of a natural pipeline for the purpose of
distributing natural gas, Vern ADMITS that this is
indeed MDU’s intention, but DENIES that the taking
and proposed easement is for a valid public purpose
and is instead a taking by a private entity and not a
governmental entity.
¶6 As to MDU’s second Para. 3 of the Complaint
in which MDU asserts that the easement will last 99
years, Vern DENIES that the taking and proposed
easement should be granted or occur, or that the length
proposed should be allowed.
¶7 As to MDU’s Para. 4 subdivisions (a) and (b) of
the Complaint, in which MDU lists all of the
restrictions that the easement will place on Vern and
on his land, Vern DENIES that the taking and

App. 79
proposed easement should be granted or occur, or that
any of these restrictions should be allowed.
¶8 As to MDU’s Para. 4 subdivisions (c) of the
Complaint in which MDU lists Vern’s right of ingress
and egress across his adjacent lands at reasonable
times and at convenient points above the described
premises on his own land, Vern DENIES that the
taking and proposed easement should be granted or
occur, or that any of these restrictions should be
applied, and asserts that he should have no restrictions
to ingress, egress, or use of his land.
¶9 As to MDU’s Para. 4 subdivisions (d) of the
Complaint in which MDU asserts that it will pay any
and all damages that may result in construction and
other aspects of the pipeline, Vern ADMITS that MDU
should be responsible for any damage done to the land
(crops, fences, buildings, and improvements), Vern
ADMITS that MDU should be responsible for any and
all damages that may result in the placement of the
pipeline on his land, but Vern DENIES that the taking
and proposed easement should be granted or occur, or
that any of these damages should occur, and further
asserts that if any damages does occur, the value
should be determined by a jury, not three disinterested
persons.
¶10 Action Brought by Non-Governmental Entity
Vern specifically alleges that the power of eminent
domain should not be employed in this case because the
entity bringing the action is not a governmental entity
but instead a private entity using a governmental
power that should be used only by a governmental

App. 80
entity for purposes of public roads or infrastructure,
and not to the benefit of private persons or entities.
¶11 Proposed Use is Not a Public Use Vern
specifically alleges that the proposed use is not a public
use but is instead for the benefit of two private entities,
that is MDU and Burlington Northern Railroad, in
violation of ND CONST. Art. I, section 16, N.D.C.C.
Sections 32-15-01(1) and 32-15-04(3).
¶12 Proposed Easement is Not Necessary Due to
Alternative Viable Option – Use of Road Right of
Way Vern alleges that the use of the eminent domain
power cannot be applied here in that the proposed
easement is not necessary due to the fact that MDU
has an alternative viable option of placing the natural
gas line on the existing right of way along the road and
as such it is improper to use eminent domain against
Vern when it is not necessary, in violation of ND
CONST. Art. I, section 16, N.D.C.C. Sections 32-1501(2), 32-15-04(6), and 32-15-05(2).
¶13 Proposed Easement is Not Necessary – Use of
Propane Tanks Vern alleges that the use of the
eminent domain power cannot be applied here in that
the proposed easement is not necessary due to the fact
that MDU and Burlington Northern Railroad has an
alternative viable option of placing of using propane
tanks on the existing right of way along the rail road
tracks (which is exactly what has occurred on the other
side of the road) and as such it is improper to use
eminent domain against V ern when it is not necessary,
in violation of ND CONST. Art. I, section 16, N.D.C.C.
Sections 32-15-01(2), 32-15-04(6), and 32-15-05(2).

App. 81
¶14 Failure to Negotiate MDU has violated N.D.C.C.
Section 32-15-06.1 by failing to make every reasonable
and diligent effort to acquire property by negotiation or
to take the steps required under subdivisions 2, 3, and
4 of this statute, and as such the Complaint should be
dismissed.
¶15 COUNTERCLAIM
¶16 Damages and Just Compensation In the event
the easement or taking of the land occurs, Vern
requests just compensation and damages as allowed
under Chapter 32-15, and more specifically under
Section 32-15-22.
¶17 Award of Attorney Fees upon Taking of Land
Where the power of eminent domain is employed or
attempted under North Dakota state law, the Court
may award to the defendant reasonable attorney fees
under Section 32-15-32 – and reasonable attorney fees
are claimed by Vern in this matter.
¶18 Award of Attorney Fees if Action is
Dismissed or Easement Not Granted Where the
power of eminent domain is employed or attempted
under North Dakota state law, and the easement or
taking that is originally proposed is denied, not
granted, or the Complaint is dismissed by the Court,
then the defendant has the right to reasonable attorney
fees under Section 32-15-35 – and reasonable attorney
fees are claimed by Vern in this matter and reasonable
attorney fees are claimed by Vern in this matter.
¶19 Right to Jury Trial Where the power of eminent
domain is employed or attempted under North Dakota
state law, the person opposing the use of the power of

App. 82
eminent domain or the amount of damages has the
right to a jury trial as to all issues, including
1) whether the easement or taking is for a public
use;
2) whether the easement or taking is necessary;
3) whether the easement or taking is unnecessary
due to viable alternatives;
4) the amount of damages; and
5) the amount of the award of attorney fees.
Vern asserts the right to a jury trial and a decision by
a jury as to each of these issues under Section 32-15-13
and 32-15-22. In the event that the Court determines
that the right to jury applies only to the assessment of
damages, then Vern requests that the Court determine
items 1, 2, 3, and 5, above.
¶20 First Defense
¶21 Vern asserts that the complaint fails to state a
claim against defendant upon which relief can be
granted.
¶22 Second Defense
¶23 Vern asserts that there is a failure to join a party
under Rule 19, that is Burlington Northern Pacific
Railroad, or in the alternative that Burlington
Northern Pacific Railroad should be added as a party
under Rule 20 in that there is a question of law and
fact common to both the defendants and the plaintiff,
and that is whether the taking is necessary due to
viable alternatives to the taking.

App. 83
¶24 JURY TRIAL DEMANDED
¶25 WHEREFORE, Defendant Vern Behm requests
the following relief:
1. That the Complaint be dismissed and reasonable
attorney fees be awarded for failure to state a claim;
2. That the Court add any necessary or permissive
party to the action;
3. That the Court determine that MDU does not
have the right to acquire the property described in
the Complaint because the use of the property is not
for public use;
4. That the Complaint be dismissed and reasonable
attorney fees be awarded due to any of the
following:
a) action not brought by a governmental entity;
b) action not brought for a public purpose;\
c) action not necessary due to existing right of
way on adjacent road;
d) action not necessary due to option of using
propane tanks along existing right of way along
railway.
5. Award of just compensation for any easement or
taking.
6. Award of reasonable attorney fees.
7. If the use of the property is allowed, that the
amount of just compensation be determined by the

App. 84
appropriate entity, that is a jury or in the
alternative a Court if a jury is not allowed by law;
8. Award of pre-judgment and post-judgment
interest allowed by law;
9. Award of costs and disbursements; and
10. Any further relief granted by the Court in this
matter that the Court deems just.
¶26 Dated this 25th day of October, 2016.
/s/Lynn Boughey
Lynn Boughey (04046)
lynnboughey@midconetwork.com
Attorney for Lavern Behm
P.O. Box 836
Bismarck, ND 58502-0836
(701) 751-1485

App. 85

APPENDIX K
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT NORTH CENTRAL
JUDICIAL DISTRICT
Case No. 51-2016-CV-01678
[Filed November 9, 2016]
_____________________________
Montana-Dakota Utilities Co., )
a Division of MDU Resources )
Group, Inc.,
)
)
Plaintiff,
)
)
vs.
)
)
Lavern Behm,
)
)
Defendant.
)
_____________________________ )
REPLY TO COUNTERCLAIM
Plaintiff, for its reply to the Counterclaim of the
Defendant, as follows:
[¶1] Plaintiff denies each and every allegation of
Defendant’s Counterclaim as is hereinafter admitted,
qualified or explained.

App. 86
[¶2] Admits that the Defendant is entitled to
compensation as provided by the North Dakota
Constitution and North Dakota law, and admits that
the trial court has the discretion to award attorney’s
fees.
[¶3] Admits that the issue of just compensation
should be decided by a jury.
[¶4] Specifically denies that Burlington Northern
Pacific Railroad is a necessary party to the issues in
this case.
WHEREFORE, the Plaintiff prays that the issue of
just compensation be decided by the jury in this case,
that the Court determine that the Plaintiff is entitled
to the easement as requested in its Complaint, together
with such other relief as to the Court seems just.
Dated this 9th day of November, 2016.
CROWLEY FLECK PLLP
Attorneys for Plaintiff
100 West Broadway Avenue, Suite 250
P.O. Box 2798
Bismarck, ND 58502-2798
Tel. 701-224-7522
By: /s/ Malcolm H. Brown
Malcolm H. Brown (#02842)
mbrown@crowleyfleck.com
Christopher K. LeCates (#07554)
clecates@crowleyfleck.com

App. 87

APPENDIX L
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT
NORTH CENTRAL JUDICIAL DISTRICT
Civil No. 51-2016-CV-01678
[Filed: December 18, 2019]
__________________________________________
Montana-Dakota Utilities Co., a
)
Division of MDU Resources Group, Inc.,
)
)
Plaintiff,
)
)
vs.
)
)
Lavern Behm,
)
)
Defendant.
)
__________________________________________)
PLAINTIFF’S PRETRIAL STATEMENT,
WITNESS LIST, EXHIBIT LIST AND REQUEST
FOR JURY INSTRUCTIONS
PLAINTIFF’S PRETRIAL STATEMENT:
This is an action in eminent domain whereby the
Plaintiff, Montana-Dakota Utilities Co., (“MDU”) seeks
to acquire property from the Defendant Lavern Behm.
This project involves the installation of a natural gas

App. 88
pipeline to provide natural gas to fuel a railroad switch
heater of the BNSF railroad. Defendant’s property is
located south of the BNSF main line west of Berthold,
ND. The proposed taking will involve a 10’ permanent
easement and a 30’ temporary construction easement
447 feet in length to install a 4” pipeline. Defendant is
not contesting that this project was for a public
purpose, or that MDU does not have the right to use
eminent domain to acquire the right-of-way. The only
issue for trial is the amount of damages for the taking
and severance, if any, to the Defendant’s property by
reason of this project. The measure of damages under
North Dakota law is set forth in Pattern Jury
Instructions C-75.05 and C-75.10.
WITNESS LIST:
Plaintiff intends to call the following witnesses at
the trial of this matter in Ward County District Court,
commencing on January 8, 2020:
• Curt Olson
• Joseph Ibach
EXHIBIT LIST:
Plaintiff intends to offer the following exhibits:
• Maps, photos and plats of subject area
• Ibach appraisal of damages
REQUEST FOR JURY INSTRUCTIONS:
Plaintiff requests the following jury instructions,
suitably modified to reflect the acquisition by the
Plaintiff, as follows:

App. 89
C-1.30

Function of Pleadings

C-1.40

Burden of Proof - Greater Weight of the
Evidence

C-75.01 Eminent Domain
C-75.02 Purpose of Taking
C-75.03 Propriety of Taking Not in Issue
C-75.04 Burden of Proof (Eminent Domain)
C-75.05 Just Compensation for Property Taken
C-75.10 Severance Damages
C-75.16 When Right to [Compensation] [and]
[Damages] Accrues
C-75.26 Evidence of Similar Sales Restricted
C-75.30 Attorney’s Fees and Costs in Eminent
Domain
C-80.01 Weight and Credibility
C-80.05 Testimony of Expert
C-80.08 Testimony of Landowner
C-85.01 Statements by Counsel and Judge
C-85.10 Duty to Accept Law from Court
C-85.15 Fair Treatment Under the Law
C-90.35 Verdict Awarding Compensation and
Damages in Eminent Domain
Dated this 18th day of December, 2019.

App. 90
CROWLEY FLECK PLLP
Attorneys for Plaintiff
100 West Broadway Avenue, Suite 250
P.O. Box 2798
Bismarck, ND 58502-2798
Tel. 701-223-6585
By: /s/ Malcolm H. Brown
Malcolm H. Brown (#02842)
mbrown@crowleyfleck.com

App. 91

APPENDIX M
BOUGHEY LAW FIRM
Lynn M. Boughey
Attorney and Counselor at Law
P. O. Box 1202
Mandan, ND 58554-1202
lynnboughey@midconetwork.com
(701) 751-1485
Thursday, December 12, 2019
The Honorable Gary H. Lee
Ward County Courthouse
Minot, ND 58702-5005
Re:

filed via Odyssey only

MDU v. Lavern Behm, Civ. No. 51-2016-CV01678

Your Honor:
Your scheduling order requires that we inform you in
writing at least 14 days before the trial whether the
case is going to trial, and if so, submit your instructions
at that time. That deadline will be next Monday,
December 23, 2019.
Because of the upcoming holidays, I am providing the
Court notification now that the case is going to trial,
and on this date I am submitting to you proposed jury
instructions. I note that my proposed your instructions
allow the jury, and an advisory capacity, to decide
whether or not the taking of the property is necessary
and for public use. Allowing these two issues – in

App. 92
addition to the compensation issue – to be presented to
the jury in its advisory capacity will allow complete
record on appeal, but the purpose of attempting to
change North Dakota law and allow the jury to decide
whether the taking is appropriate.
Sincerely,
/s/ Lynn M. Boughey
Lynn M. Boughey
Cc: Attorneys Malcom Brown via Odyssey

App. 93

APPENDIX N
PROPOSED JURY INSTRUCTIONS
51-2016-CV-01678
C - 75.01. Eminent Domain 2014
MDU as a public utility is allowed the right to take
property for public use. This right is known as eminent
domain. However, before private property may be
taken such taking must be necessary and for public
use, and if the taking is necessary and for a public use
just compensation must be paid.
*****
US CONST. SEVENTH AMENDMENT
In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury
shall be preserved, and no fact tried by a jury, shall be
otherwise re-examined in any Court of the United
States, than according to the rules of the common law.
ND CONST. ART. I, SEC.16:
Section 16. Private property shall not be taken or
damaged for public use without just compensation . . . .
For purposes of this section, a public use or a public
purpose does not include public benefits of economic
development, including an increase in tax base, tax
revenues, employment, or general economic health.
Private property shall not be taken for the use of, or

App. 94
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business.
32-15-01. Eminent domain defined - How
exercised - Condemnor defined - Exceptions.
1. Eminent domain is the right to take private property
for public use.
2. Private property may not be taken or damaged for
public use without just compensation first having been
made to or paid into court for the owner. When private
property is taken by a person, no benefit to accrue from
the proposed improvement may be allowed in
ascertaining the compensation to be made therefor.
Private property may not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business. A determination of the
compensation must be made by a jury, unless a jury is
waived. The right of eminent domain may be exercised
in the manner provided in this chapter.
3. Notwithstanding any other provision of law, a public
use or a public purpose does not include public benefits
of economic development, including an increase in tax
base, tax revenues, employment, or general economic
health.
4. For the purpose of this chapter, “condemner” means
a person empowered to take property under the power
of eminent domain.
32-15-05. What must appear before property
taken.
Before property can be taken it must appear:
1. That the use to which it is to be applied is a use

App. 95
authorized by law.
2. That the taking is necessary to such use.
3. If already appropriated to some public use, that the
public use to which it is to be applied is a more
necessary public use.
NDCC 32-15-01
Gissel v. Kenmare Tp., 512 NW2d 470, 474 (ND 1994)
Proposed by Vern Behm
ACCEPTED:

___

REJECTED:

___

MODIFIED:

___

App. 96
51-2016-CV-01678
C - 75.03A. Public Use Defined
‘Public use’ is considered ‘public benefit’ and it is not
considered essential that the entire community or even
any considerable portion thereof should directly enjoy
or participate in any improvement in order that it
constitute a public use. The requirements, as to public
use, for a law embracing the taking of land are as
follows:
‘(1) That it affect a community as distinguished
from an individual;
‘(2) That the law controls the use to be made of the
property;
‘(3) That the title so taken be not invested in a
person or corporation as a private property to be
used and controlled as private property; and
‘(4) That the public reap the benefits of public
possession and use and that no one exercise control
except the public.’
The benefits to the public may not be remote, indirect,
incidental, or speculative to satisfy the constitutional
public use requirement. They must be apparent and
direct.
244 N.W.2d 535-536
Square Butte Elec. Co-op. v. Hilken, 244 N. W.2d 519,
535-536 (N.D. 1976)(Justices Sand and Vogel
dissenting); Square Butte Elec. Co-op. v. Hilken, 219
N.W.2d 877 (N.D. 1974)(all five justices deciding that

App. 97
defining ‘public use’ not necessary to the decision
rendered); Ferch v. Housing Authority of Cass County,
59 N.W.2d 849, 79 N.D. 764 (N.D. 1953).
*****
US CONST. FIFTH AMENDMENT
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall
any person be subject for the same offence to be twice
put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for
public use, without just compensation.
US CONST. SEVENTH AMENDMENT
In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury
shall be preserved, and no fact tried by a jury, shall be
otherwise re-examined in any Court of the United
States, than according to the rules of the common law.
ND CONST. ART. I, SEC.16:
Section 16. Private property shall not be taken or
damaged for public use without just compensation . . . .
For purposes of this section, a public use or a public
purpose does not include public benefits of economic
development, including an increase in tax base, tax
revenues, employment, or general economic health.

App. 98
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business.
32-15-01. Eminent domain defined - How
exercised - Condemnor defined - Exceptions.
1. Eminent domain is the right to take private property
for public use.
2. Private property may not be taken or damaged for
public use without just compensation first having been
made to or paid into court for the owner. When private
property is taken by a person, no benefit to accrue from
the proposed improvement may be allowed in
ascertaining the compensation to be made therefor.
Private property may not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business. A determination of the
compensation must be made by a jury, unless a jury is
waived. The right of eminent domain may be exercised
in the manner provided in this chapter.
3. Notwithstanding any other provision of law, a public
use or a public purpose does not include public benefits
of economic development, including an increase in tax
base, tax revenues, employment, or general economic
health.
4. For the purpose of this chapter, “condemnor” means
a person empowered to take property under the power
of eminent domain.
32-15-05. What must appear before property
taken.
Before property can be taken it must appear:

App. 99
1. That the use to which it is to be applied is a use
authorized by law.
2. That the taking is necessary to such use.
3. If already appropriated to some public use, that the
public use to which it is to be applied is a more
necessary public use.
NDCC 32-15-13
City of Minot v. Minot Highway Ctr., 120 NW2d 597
(ND 1963)
City of Monterey v. Del Monte Dunes at Monterey, Ltd.,
526 US 687, 755 (1999)
Gissel v. Kenmare Twp., 512 NW2d 470, 477 (ND 1994)
(cited by City of Monterey v. Del Monte)
Proposed by Vern Behm
ACCEPTED:

___

REJECTED:

___

MODIFIED:

___

App. 100
51-2016-CV-01678
C - 75.03. Propriety of Taking 2014
In this case the [MDU] asserts that the taking of the
property is necessary and for public use. The wisdom or
propriety of the taking is [generally an issue left for the
Court to decide. However, in order to assist me in
making this decision, I will be asking you to determine
through formal questions asked on the verdict form
whether you the jury believe that this taking is
necessary and for the for the public use.] The [other]
issue for you to consider is the compensation and
damages that should be awarded to the owner for the
property taken.
*****
US CONST. SEVENTH AMENDMENT
In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury
shall be preserved, and no fact tried by a jury, shall be
otherwise re-examined in any Court of the United
States, than according to the rules of the common law.
ND CONST. ART. I, SEC.16:
Section 16. Private property shall not be taken or
damaged for public use without just compensation . . . .
For purposes of this section, a public use or a public
purpose does not include public benefits of economic
development, including an increase in tax base, tax
revenues, employment, or general economic health.
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless

App. 101
that property is necessary for conducting a common
carrier or utility business.
32-15-01. Eminent domain defined - How
exercised - Condemnor defined - Exceptions.
1. Eminent domain is the right to take private property
for public use.
2. Private property may not be taken or damaged for
public use without just compensation first having been
made to or paid into court for the owner. When private
property is taken by a person, no benefit to accrue from
the proposed improvement may be allowed in
ascertaining the compensation to be made therefor.
Private property may not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business. A determination of the
compensation must be made by a jury, unless a jury is
waived. The right of eminent domain may be exercised
in the manner provided in this chapter.
3. Notwithstanding any other provision of law, a public
use or a public purpose does not include public benefits
of economic development, including an increase in tax
base, tax revenues, employment, or general economic
health.
4. For the purpose of this chapter, “condemner” means
a person empowered to take property under the power
of eminent domain.
32-15-05. What must appear before property
taken.
Before property can be taken it must appear:
1. That the use to which it is to be applied is a use
authorized by law.

App. 102
2. That the taking is necessary to such use.
3. If already appropriated to some public use, that the
public use to which it is to be applied is a more
necessary public use.
NDCC 32-1 5-13
City of Minot v. Minot Highway Ctr., 120 NW2d 597
(ND 1963)
City of Monterey v. Del Monte Dunes at Monterey, Ltd.,
526 US 687, 755 (1999)
Gissel v. Kenmare Twp., 512 NW2d 470, 477 (ND 1994)
(cited by City of Monterey v. Del Monte)
Proposed by Vern Behm
ACCEPTED:

___

REJECTED:

___

MODIFIED:

___

App. 103
51-2016-CV-01678
C - 75.04. Burden of Proof (Eminent Domain) 2014
[In regards to the necessity of the taking or whether
the taking is a public use, the burden is on MDU. As
such MDU must prove, by the greater weight of the
evidence, any entitlement to take the property.]
[In regards to any compensation you allow, the owner
of the property must prove, by the greater weight of the
evidence, any entitlement to [compensation] [and]
[damages] and the amount of those damages.
*****
US CONST. SEVENTH AMENDMENT
In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury
shall be preserved, and no fact tried by a jury, shall be
otherwise re-examined in any Court of the United
States, than according to the rules of the common law.
ND CONST. ART. I, SEC.16:
Section 16. Private property shall not be taken or
damaged for public use without just compensation . . . .
For purposes of this section, a public use or a public
purpose does not include public benefits of economic
development, including an increase in tax base, tax
revenues, employment, or general economic health.
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business.

App. 104
32-15-01. Eminent domain defined - How
exercised - Condemnor defined - Exceptions.
1. Eminent domain is the right to take private property
for public use.
2. Private property may not be taken or damaged for
public use without just compensation first having been
made to or paid into court for the owner. When private
property is taken by a person, no benefit to accrue from
the proposed improvement may be allowed in
ascertaining the compensation to be made therefor.
Private property may not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business. A determination of the
compensation must be made by a jury, unless a jury is
waived. The right of eminent domain may be exercised
in the manner provided in this chapter.
3. Notwithstanding any other provision of law, a public
use or a public purpose does not include public benefits
of economic development, including an increase in tax
base, tax revenues, employment, or general economic
health.
4. For the purpose of this chapter, “condemner” means
a person empowered to take property under the power
of eminent domain.
32-15-05. What must appear before property
taken.
Before property can be taken it must appear:
1. That the use to which it is to be applied is a use
authorized by law.
2. That the taking is necessary to such use.
3. If already appropriated to some public use, that the

App. 105
public use to which it is to be applied is a more
necessary public use.
NDCC 32-15-22, -23
City of Grand Forks v. Hendon/DDRC/BP, LLC, 2006
ND 116, 715 NW2d 145
City of Devils Lake v. Davis, 480 NW2d 720, 725 (ND
1992)
Dutchuk v. Bd. of County Comm’rs, Billings County,
429 NW2d 21 (NDCt. App. 1 988)
Proposed by Vern Behm
ACCEPTED:

___

REJECTED:

___

MODIFIED:

___

App. 106
51-2016-CV-01678
C - 75.05. Just Compensation for Property Taken
2014
Just compensation for the property actually taken is
the fair market value of that property and all
improvements on that property, if any. You must
determine that value as of the date of the [taking]
[trial].
“Fair market value” is the highest price for which the
property can be sold in the open market by a willing
seller to a willing purchaser, neither party acting under
compulsion and both exercising reasonable judgment.
In determining fair market value, you should consider
past uses of the property, and all other uses for which
it is suitable or adaptable and needed or likely to be
needed in the reasonably near future, as will in
reasonable probability affect its market value while it
is privately owned. However, the owner is not entitled
to compensation based on remote, speculative,
uncertain, or mere possible use.
Elements affecting value that depend upon events
which, while within the realm of possibility, are not
fairly shown to be reasonably probable, should not be
considered by you.
The determination of value in a condemnation
proceeding is not a matter of a formula or artificial
rules, but of sound judgment and discretion based upon
your consideration of all the relevant facts in a
particular case.

App. 107
*****
US CONST. SEVENTH AMENDMENT
In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury
shall be preserved, and no fact tried by a jury, shall be
otherwise re-examined in any Court of the United
States, than according to the rules of the common law.
ND CONST. ART. I, SEC.16:
Section 16. Private property shall not be taken or
damaged for public use without just compensation . . . .
For purposes of this section, a public use or a public
purpose does not include public benefits of economic
development, including an increase in tax base, tax
revenues, employment, or general economic health.
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business.
32-15-01. Eminent domain defined - How
exercised - Condemnor defined - Exceptions.
1. Eminent domain is the right to take private property
for public use.
2. Private property may not be taken or damaged for
public use without just compensation first having been
made to or paid into court for the owner. When private
property is taken by a person, no benefit to accrue from
the proposed improvement may be allowed in
ascertaining the compensation to be made therefor.
Private property may not be taken for the use of, or
ownership by, any private individual or entity, unless

App. 108
that property is necessary for conducting a common
carrier or utility business. A determination of the
compensation must be made by a jury, unless a jury is
waived. The right of eminent domain may be exercised
in the manner provided in this chapter.
3. Notwithstanding any other provision of law, a public
use or a public purpose does not include public benefits
of economic development, including an increase in tax
base, tax revenues, employment, or general economic
health.
4. For the purpose of this chapter, “condemner” means
a person empowered to take property under the power
of eminent domain.
32-15-05. What must appear before property
taken.
Before property can be taken it must appear:
1. That the use to which it is to be applied is a use
authorized by law.
2. That the taking is necessary to such use.
3. If already appropriated to some public use, that the
public use to which it is to be applied is a more
necessary public use.
NDCC 32-15-22, 23
See NDCC 24-01-01.1(27)
Hultberg v. Hjelle, 2 86 NW2d 448, 452 (ND 1979)
City of Hazelton v. Daugherty, 275 NW2d 624 (ND
1979)
Chandler v. Hjelle, 126 NW2d 141 (ND 1964)

App. 109
Proposed by Vern Behm
ACCEPTED:

___

REJECTED:

___

MODIFIED:

___

App. 110
51-2016-CV-01678
C - 75.10. Severance Damages Eminent Domain
2015
Because only a portion of the landowner’s tract is
taken, you must determine the severance damages, if
any, that will accrue to the portion not [taken] [sought
to be condemned]. Severance damages are measured by
the loss in fair market value of the property affected.
[Severance damages can be allowed only where there is
unity of use between the portion of the landowner’s
tract that is taken and the portion not taken. To
constitute unity of use of property between two or more
distinct parcels of land, there must be such connection
or relation of adaptation, ownership, proximity,
convenience, and actual and permanent use as to make
the enjoyment of the portion taken reasonably and
substantially necessary to the enjoyment of the portion
not taken, in the most advantageous and profitable
manner in the business of the unit for which they are
used.]
The giving of instructions on severance damages must
not be taken as a recognition that those damages exist.
Whether severance damages exist and whether they
are proximately caused by the taking are questions of
fact for you to determine. If the portion of the property
not [taken] [sought to be condemned] is not rendered
any less valuable by reason of the taking, there is no
financial loss and hence no damages resulting to that
portion. Likewise, damages cannot be awarded if the
claimed loss is not proximately caused by the taking.

App. 111
*****
US CONST. SEVENTH AMENDMENT
In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury
shall be preserved, and no fact tried by a jury, shall be
otherwise re-examined in any Court of the United
States, than according to the rules of the common law.
ND CONST. ART. I, SEC.16:
Section 16. Private property shall not be taken or
damaged for public use without just compensation . . . .
For purposes of this section, a public use or a public
purpose does not include public benefits of economic
development, including an increase in tax base, tax
revenues, employment, or general economic health.
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business.
NDCC 32-15-22
City of Grand Forks v. Hendon/DDRC/BP, 2006 ND
116, 9-10, 715 NW2d 145
City of Jamestown v. Leevers Supermarkets, Inc., 552
NW2d 365, 374 (ND 1996)
City of Devils Lake v. Davis, 480 NW2d 720, 725 (ND
1992)
Sauvegeau v. Hjelle, 213 NW2d 381 (ND 1973)

App. 112
Proposed by Vern Behm
ACCEPTED:

___

REJECTED:

___

MODIFIED:

___

App. 113
51-2016-CV-01678
C - 75.12. Damage to Business 2014
You may award the landowner damages for any
increased business expense or for damages to or loss of
business. Discomfort, disturbance, inconvenience, and
injury to business are compensable. [On the verdict
form you will be asked to separate this amount from
the value of the land itself.]
*****
US CONST. SEVENTH AMENDMENT
In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury
shall be preserved, and no fact tried by a jury, shall be
otherwise re-examined in any Court of the United
States, than according to the rules of the common law.
ND CONST. ART. I, SEC.16, 2nd Paragraph;
Section 16. Private property shall not be taken or
damaged for public use without just compensation . . . .
For purposes of this section, a public use or a public
purpose does not include public benefits of economic
development, including an increase in tax base, tax
revenues, employment, or general economic health.
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business.

App. 114
32-15-01. Eminent domain defined - How
exercised - Condemnor defined - Exceptions.
1. Eminent domain is the right to take private property
for public use.
2. Private property may not be taken or damaged for
public use without just compensation first having been
made to or paid into court for the owner. When private
property is taken by a person, no benefit to accrue from
the proposed improvement may be allowed in
ascertaining the compensation to be made therefor.
Private property may not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business. A determination of the
compensation must be made by a jury, unless a jury is
waived. The right of eminent domain may be exercised
in the manner provided in this chapter.
3. Notwithstanding any other provision of law, a public
use or a public purpose does not include public benefits
of economic development, including an increase in tax
base, tax revenues, employment, or general economic
health.
4. For the purpose of this chapter, “condemner” means
a person empowered to take property under the power
of eminent domain.
32-15-05. What must appear before property
taken.
Before property can be taken it must appear:
1. That the use to which it is to be applied is a use
authorized by law.
2. That the taking is necessary to such use.
3. If already appropriated to some public use, that the

App. 115
public use to which it is to be applied is a more
necessary public use.
NDCC 32-15-22
Little v. Burleigh County, 82 NW2d 603, 613-14 (ND
1957)
Proposed by Vern Behm
ACCEPTED:

___

REJECTED:

___

MODIFIED:

___

App. 116
51-2016-CV-01678
C - 75.16. When Right to [Compensation] [and]
[Damages] Accrues 2008
The right to [compensation] [and] [damages] is deemed
to have accrued at the date of the [taking] [trial]. Its
actual value at that date is the measure of
compensation for all property actually [taken] [to be
taken] [and the basis of damages to the property not
actually taken, but injuriously affected].
[Improvements put upon property after [month] [date]
[year], the date of service of the summons, cannot be
included in the assessment of [compensation] [or]
[damages]].
*****
US CONST. SEVENTH AMENDMENT
In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury
shall be preserved, and no fact tried by a jury, shall be
otherwise re-examined in any Court of the United
States. than according to the rules of the common law.
ND CONST. ART. I, SEC. 16:
Section 16. Private property shall not be taken or
damaged for public use without just compensation . . . .
For purposes of this section, a public use or a public
purpose does not include public benefits of economic
development, including an increase in tax base, tax
revenues, employment, or general economic health.
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless

App. 117
that property is necessary for conducting a common
carrier or utility business.
NDCC 32-15-23 ; 24-01-22
ND Const. § 16
City of Devils Lake v. Davis, 480 NW2d 720, 725 (ND
1992)
Volkmann v. City of Crosby, 120 NW2d 18 (ND 1963)
Kenner v. City of Minot, 98 NW2d 901 (ND 1959)
Little v. Burleigh County, 82 NW2d 603 (ND 1957)
Mayer v. Studer & Manion Co., 262 NW 925 (ND 1935)
NOTE: The date of taking controls where there has
been a wrongful taking of the property or where there
has been taking of property for right-of-way purposes.
Proposed by Vern Behm
ACCEPTED:

___

REJECTED:

___

MODIFIED:

___

App. 118
51-2016-CV-01678
C - 75.18. Amount of Award of Severance or
Consequential Damages 2014
In the event [severance] [consequential] damages are
awarded, the amount of those damages must [be
whatever amount you consider those additional
damages to be].
*****
US CONST. SEVENTH AMENDMENT
In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury
shall be preserved, and no fact tried by a jury, shall be
otherwise re-examined in any Court of the United
States, than according to the rules of the common law.
ND CONST. ART. I, SEC. 16:
Section 16. Private property shall not be taken or
damaged for public use without just compensation . . . .
For purposes of this section, a public use or a public
purpose does not include public benefits of economic
development, including an increase in tax base, tax
revenues, employment, or general economic health.
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business.
32-15-01. Eminent domain defined - How
exercised - Condemnor defined - Exceptions.
1. Eminent domain is the right to take private property

App. 119
for public use.
2. Private property may not be taken or damaged for
public use without just compensation first having been
made to or paid into court for the owner. When private
property is taken by a person, no benefit to accrue from
the proposed improvement may be allowed in
ascertaining the compensation to be made therefor.
Private property may not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business. A determination of the
compensation must be made by a jury, unless a jury is
waived. The right of eminent domain may be exercised
in the manner provided in this chapter.
3. Notwithstanding any other provision of law, a public
use or a public purpose does not include public benefits
of economic development, including an increase in tax
base, tax revenues, employment, or general economic
health.
4. For the purpose of this chapter, “condemner” means
a person empowered to take property under the power
of eminent domain.
32-15-05. What must appear before property
taken.
Before property can be taken it must appear:
1. That the use to which it is to be applied is a use
authorized by law.
2. That the taking is necessary to such use.
3. If already appropriated to some public use, that the
public use to which it is to be applied is a more
necessary public use.
City of Devils Lake v. Davis, 480 NW2d 720 (ND 1992)

App. 120
Dutchuk v. Board of County Comm. Billings County,
429 NW2d 21 (NDCt.App. 1988)
City of Hazelton v. Daugherty, 275 NW2d 624 (ND
1979)
Proposed by Vern Behm
ACCEPTED:

___

REJECTED:

___

MODIFIED:

___

App. 121
51-2016-CV-01678
C - 75.20. Consequential Damages 2014
“Consequential damages” are damages to property
caused by the construction of the proposed
improvement, although no part of the property is taken
for public use. It is not necessary that there be a direct
injury to the property affected to warrant a recovery for
consequential damages. It is sufficient that there be
some direct, physical disturbance of a right, either
public or private, that the property owner enjoys in
connection with the property, and which gives to it
additional value, by reason of which disturbance the
property owner incurs a special injury with respect to
the property in excess of that sustained by the public
generally.
*****
US CONST. SEVENTH AMENDMENT
In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury
shall be preserved, and no fact tried by a jury, shall be
otherwise re-examined in any Court of the United
States, than according to the rules of the common law.
ND CONST. ART. I, SEC.16:
Section 16. Private property shall not be taken or
damaged for public use without just compensation . . . .
For purposes of this section, a public use or a public
purpose does not include public benefits of economic
development, including an increase in tax base, tax
revenues, employment, or general economic health.

App. 122
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless
that property is necessary for conducting a common
carrier or utility business.
NDCC 32-15-22
Dutchuk v. Bd. of County Comm’rs Billings County, 429
NW2d 21, 23 (ND Ct App 1988)
United Power Assoc. v. Heley, 277 NW2d 262 (ND 1979)
Eck v. City of Bismarck, 283 NW2d 193, 199 (ND 1979
Little v. Burleigh County, 82 NW2d 603 (ND 1957)
Wilson v. City of Fargo, 141 NW2d 727 (ND 1966)
Yegen v. City of Bismarck, 291 NW2d 422, 426 (ND
1980)
Proposed by Vern Behm
ACCEPTED:

___

REJECTED:

___

MODIFIED:

___

App. 123

APPENDIX O
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT
NORTH CENTRAL JUDICIAL DISTRICT
Ward County Civil No. 51 2016 CV 1678
[Filed: January 3, 2020]
____________________________________
Montana-Dakota Utilities Co.,
)
)
A Division of MDU Resources
)
)
Group, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
Lavern Behm,
)
)
Defendant.
)
____________________________________)
ORDER
[1] The above action is one for taking by eminent
domain. A jury trial is scheduled to begin on January
8, 2020.
[2] The defendant, Lavern Behm, has submitted
proposed jury instructions which would allow a jury to

App. 124
sit, in an advisory capacity, to determine whether the
taking of Lavern Behrn’s property is necessary and for
a public use.
[3] The plaintiff, Montana-Dakota Utilities Co., a
Division of MDU Resources Group, Inc., hereafter
MDU, opposes the requested jury instructions, and the
seating of an advisory jury on the issue of need and
necessity for the taking.
[4] The proposed jury instructions are DENIED. The
jury’s sole role will be to determine eminent domain
damages.
[5] This case was previously tried to this Court on the
issue of the need and necessity of the taking of Lavern
Behm’s property by MDU. This Court determined that
MDU had not established a public need or necessity,
and that the proposed taking of an easement for the
placement of a natural gas pipeline was for the
convenience of a single user only. The Court’s decision
was appealed. The North Dakota Supreme Court
REVERSED and REMANDED the case to this Court
for trial on eminent domain damages to be awarded to
Lavern Behm. Montana Dakota Utilities, Co. v. Behm,
2019 ND 139, 927 NW2d 865.
[6] This Court must adhere to the mandate rule on
remand. That rule requires the trial court to follow the
pronouncements of an appellate court on legal issues in
subsequent proceedings of the case, and to carry the
appellate court’s mandate into effect and according to
its terms. Law v. Whittet, et al., 2015 ND 16, 858
NW2d 636. The mandate of the North Dakota Supreme
Court is clear. The matter of need and necessity is no

App. 125
longer an issue. The only matter left for determination
in this trial is the issue of eminent domain damages to
be awarded to Lavern Behm.
[7] IT IS THEREFORE ORDERED:
[8] The requests by Lavern Behm for jury instructions,
and an advisory jury on the issue of need and necessity
are DENIED.
[9] January 3, 2020
/s/ Gary H. Lee
[10] Gary H. Lee, District Judge

App. 126

APPENDIX P
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT
NORTH CENTRAL JUDICIAL DISTRICT
Civil No. 51-2016-CV-01678
[Filed: January 7, 2020]
__________________________________________
Montana-Dakota Utilities Co., a
)
Subsidiary of MDU Resources Group, Inc., )
)
Plaintiff,
)
)
vs.
)
)
Lavern Behm,
)
)
Defendant.
)
__________________________________________)
STIPULATION REGARDING VALUATION,
ATTORNEY’S FEES AND ENTRY OF A FINAL
ORDER OF CONDEMNATION
[¶1] The parties hereto by and through their counsel
stipulate and agree as follows:
[¶2] Montana-Dakota Utilities Co., a Division of
MDU Resources Group, Inc. (“MDU”), a natural gas
and electric utility company, by the terms of this
stipulation and Final Order of Condemnation (N.D.C.C.

App. 127
§ 32-15-27) is granted an easement over and across the
following described real property:
Pipeline Easement located in the NW1/4 of
Section 16, Township 155 North, Range 84 West
of the 5th PM, Ward County, North Dakota,
described as follows: The East 10 feet of the
West 43 feet of that portion of said NW1/4 lying
southerly of the Burlington Northern Santa Fe
Railroad right of way.
Temporary Construction Easement located
in the NW1/4 of Section 16, Township 155 North,
Range 84 West of the 5th PM, Ward County,
North Dakota, described as follows: The East 30
feet of the West 73 feet of that portion of said
NW1/4 lying southerly of the Burlington
Northern Santa Fe Railroad right of way.
See attached Exhibit A.
[¶3] Lavern Behm is the record title owner of the
lands to be subject of the easement.
[¶4] MDU intends to acquire said easement for the
purpose of constructing a natural gas pipeline upon the
lands of Lavern Behm referred to above, and to place,
construct, reconstruct, use, operate, repair, inspect,
maintain, remove and replace thereon a line or system
for the purpose of distributing natural gas which is a
utility use and a public use pursuant to the provisions
of Chapter 32-15, N.D.C.C.
[¶5] The easement shall be for a term of 99 years,
unless sooner terminated by MDU.

App. 128
[¶6] The easement shall also include the following
rights in favor of MDU:
(a)

An easement 10 feet in width, being 5 feet
left, and 5 feet right of the center line as
laid out and/or surveyed, or as finally
installed through, over, under and across
the tract of land hereinafter described, for
the purpose of installing and constructing
thereon, and thereafter to operate,
inspect, protect, maintain, repair,
increase the capacity of, remove, replace
and abandon in place, a gas pipeline or
lines, including without limitation
necessary pipes, equipment and fixtures,
upon the above described tract of land.

(b)

Lavern Behm agrees not to build, create
or construct or permit to be built, created,
or constructed an obstruction, building,
engineering works or other structures
upon, over, or under the above described
tract of land or that would interfere with
said pipeline or lines or MDU’s rights
hereunder. MDU shall have the right, but
not the obligation, to cut and clear trees
and shrubbery from the above described
tract of land.

(c)

MDU, its successors and assigns, shall
have the right at all reasonable times of
ingress and egress to the above described
premises across adjacent lands of Lavern
Behm, his successors and assigns, at

App. 129
convenient points for the enjoyment of the
aforesaid uses, rights, and privileges.
(d)

MDU hereby agrees that it will pay any
and all damages that may result to the
crops, fences, buildings and
improvements on said premises caused by
constructing, reconstructing, inspecting,
protecting, maintaining, repairing,
increasing the capacity of, operating or
removing said pipeline or Jines. The
damages, if not mutually agreed upon
may be determined by three disinterested
persons, one to be selected by MDU and
one by Lavern Behm.

[¶7] MDU shall pay Lavern Behm the sum of
$1,000.00 as the determination of value for the
easement.
[¶8] Within 14 days after the execution of this
stipulation, Lavern Behm’s counsel will submit a
motion to the Court for attorney’s fees, MDU will have
14 days to provide a response and Lavern Behm’s
counsel will have seven days to file any reply brief.
[¶9] Lavern Behm retains any and all rights to
appeal as to any issue in this case to the North Dakota
Supreme Court as set forth by the North Dakota Rules
of Appellate procedure, or by Petition for Certiorari to
the United States Supreme Court.
[¶10] Upon the expiration of the time to appeal from
this or previous or subsequent orders entered by the
Court, or upon the conclusion of any appeal process,
MDU may submit a Final Order of Condemnation to

App. 130
the Court granting to MDU the easement described
above.
Dated this 7th day of January, 2020.
/s/ Lavern Behm
Lavern Belim

/s/ Lynn Boughey
Lynn Boughey (04046)
lynnboughey@midconetwork.com
Attorney for Lavern Behm
P.O. Box 1202
Mandan, ND 58554-1202
(701) 751-1485

Dated this 7th day of January, 2020.
MDU, a subsidiary of MDU Resources Group, Inc.
By: /s/
Its: /s/
CROWLEY FLECK PLLP
Attorneys for Plaintiff
100 West Broadway A venue, Suite 250
P.O. Box 2798
Bismarck, ND 58502-2798
Tel. 701-224-7522
By: /s/ Malcolm H. Brown (#02842)
Malcolm H. Brown (#02842)
mbrown@.crowleyfleck.com

App. 131
PIPELINE EASEMENT FOR MONTANA-DAKOTA
UTILITIES CO., LOCATED IN THE NORTHWEST
QUARTER (NW 1/4) OF SECTION 16, TOWNSHIP
155 NORTH, RANGE 84 WEST OF THE 5TH P.M.,
WARD COUNTY, NORTH DAKOTA.
[See Fold-Out Exhibit]

PIPELINE EASEMENT FOR MONTANA-DAKOTA UTILITIES CO., LOCATED IN THE
NORTHWEST QUARTER (NW 1/4) OF SECTION 16, TOWNSHIP 155 NORTH,
RANGE 84 WEST OF THE 5TH P.M., WARD COUNTY, NORTH DAKOTA.

GRAPHIC SCALE

( IN FEET )
1 inch = 100 ft.

LEGEND

s

FOUND IRON MONUMENT,
SECTION/QUARTER CORNER

DESCRIPTION
Pipeline Easement located in the Northwest Quarter (NW
1/4) of Section 16, Township 155 North, Range 84 West
,_..- of the 5th P.M •• Ward County, North Dakota, described as
fallows:
The East 10 feet of the West 43 feet of that portion of
said Northwest Quarter lying southerly of the Burlington
Northern Santo Fe railroad right of way (240 feet wide).
Temporary Construction Easement located in the
Northwest Quarter (NW 1/4) of Section 16, Township 155
North, Range 84 West of the 5th P.M., Word County,
North Dakota, described as follows:
The East 30 feet of the West 73 feet of that portion of
sold Northwest Quarter lying southerly of the Burlington
Northern Santa Fe rallroad right of way (240 feet wide).

SURVEYOR'S CERTIFICATE

I, Kevin J. Mortin, a Professional Land Surveyor In and
far the State of North Dakota, do hereby certify that at
the request of Mantano-Dakota Utillties Co., did on or
prior to July 6th, 2016, survey the Plpellne Easement
located in the Northwest Quarter (NW 1/4) of Section 16,
Township 155 North, Range 84 West of the 5th P.M., Ward
County. North Dakota.

33.00' ROAD ROW
10.00' WIDE
PIPELINE EASEMENT

I also hereby certify that this Easement Is a correct
representation of the survey, that all distances are
correct and monuments are placed in the ground as
shown, and thot this Easement Is to the best of my
knowledge and belief, in all respects, a true description of
said property.
,

i

Doted this

I

2/ff day

of

-=J;_;;..,./,~;""\,,_,,~_7_,tJ~/~&~-/

30.00' WIDE TEMPORARY ~
CONSTRUCTION EASEMENT

/

'...,V
/\

.I/,"\

,
\ .,l
Kevin J. M111z_yn, LS- 7062

Ii

-----f'

'1

J<!

43.00'

--lr--J: _

-'-73_.oo.c._·

I

~i,;/ j

W 1/4 COR.~!
SECTION 16
__ -,F _j__

FOUND PIPE
Prepared By:

BARTLETiQ_j-Cx\VEST

srsm~!t~ i~r~"ci~?ot~~8503
701-256-1110
FAX 701-258-1111
www.bortweat.com

-

I

I

''~MON1ANA~DAKOTA
v; •

UTILITIES CO.

ADivision of MOU Re:1ow-...es Grow, inc.

In the Community to Serve'

EXHIBIT

"

App. 132

APPENDIX Q
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT
NORTH CENTRAL JUDICIAL DISTRICT
Civil No. 51-2016-CV-01678
[Filed: January 7, 2020]
_______________________________________
Montana-Dakota Utilities Co., a
)
Subsidiary of MDU Resources
)
Group, Inc.,
)
)
Plaintiff,
)
)
vs.
)
)
Lavern Behm,
)
)
Defendant.
)
_______________________________________)
ORDER
[¶1] The parties hereby stipulated to the terms of
and valuation for the easement, and the amount of and
award of attorney’s fees to be determined by the Court
at a later date;
[¶2] IT IS HEREBY ORDERED That trial of the
issue of valuation of the easement has been resolved by
Stipulation.

App. 133
[¶3] Dated this 7th day of January, 2020.
/s/______________________
District Judge

App. 134

APPENDIX R
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT
NORTH CENTRAL JUDICIAL DISTRICT
Ward County Civil No. 51 2016 CV 1678
[Filed: February 7, 2020]
____________________________________
Montana-Dakota Utilities Co.,
)
)
a Division of MDU Resources
)
)
Group, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
Lavern Behm,
)
)
Defendant.
)
____________________________________)
ORDER
[1] The above action is one for eminent domain.
[2] The matter of the taking, and the amount of
damages paid for the taking have been resolved. The
only remaining issue is that of attorney’s fees and
costs.

App. 135
[3] For the reasons stated below, the Court awards
attorney’s fees and costs to Laverne Behm in the
amount of $17,443.00.
PROCEDURAL HISTORY
[4] The plaintiff, Montana-Dakota Utilities Co., a
Division of MDU Resources Group, Inc., hereafter
MDU, sought an easement across and beneath real
property owned by the defendant, Lavern Behm. The
sole purpose of the easement was to place a natural gas
pipeline from a main MDU pipeline to service a single
user, Burlington Northern Santa Fe Railroad.
Burlington Northern maintains a railroad switch near
Lavern Behm’s land. The switch must be heated in the
winter months so that it will remain free of snow and
ice. The natural gas would be used to supply the
heaters for this switch.
[5] Lavern Belun objected to the pipeline and refused to
grant an easement. This action for eminent domain
was then commenced by MDU.
[6] This Court bifurcated the proceedings. A first trial
was held on April 17, 2018, to determine whether MDU
had established a need for the taking. The Court
determined it had not The Court issued its Order
denying the taking on May 29, 2018.
[7] Lavern Behm then made a motion for his attorney’s
fees and costs pursuant to Section 32-15-32, NDCC.
Both parties submitted arguments to the Court by
brief, and neither party requested oral argument on the
issue of fees and costs. On July 14, 2018, the Court
issued its Order regarding attorney’s fees, awarding
Lavern Behm attorney’s fees of $22,100.00, plus costs

App. 136
of $50.00. Attorney’s fees were awarded at the rate of
$325.00 per hour. A judgment was subsequently
entered.
[8] MDU timely appealed the decision and judgment
regarding the issue of necessity of the taking to the
North Dakota Supreme Court. MDU did not contest
this Court’s order regarding the award of attorney’s
fees, or the hourly rate awarded to Lavern Behm’s
counsel. MDU tendered payment to Lavern Behm for
all fees associated with the initial phase of the trial.
[9] Lavern Behm cross-appealed. In the 10 issues
identified by counsel for Lavern Behm, no issue
regarding this Court’s earlier ruling on the award of
attorney’s fees was raised. Specifically, Lavern Behm
did not appeal from any of this Court’s earlier rulings
of July 14, 2018, disallowing a number of claimed
hours, nor the hourly rate allowed by the Court.
[10] The North Dakota Supreme Court reversed this
Court’s decision on May 16, 2019. See, MDU v. Behm,
2019 ND 139,927 NW2d 865. The North Dakota
Supreme Court reversed and remanded for trial on the
amount of eminent domain damages which would be
awarded to Lavern Behm. The North Dakota Supreme
Court also awarded MDU its costs on appeal pursuant
to Rule 39, NDRAppPro.
[11] Lavern Behm then advised this Court of his
intention to seek review of the North Dakota Supreme
Court decision by the United States Supreme Court.
The Court deferred all further actions until that
process ran its course.

App. 137
[12] Lavern Behm filed his Petition for Writ of
Certiorari with the United States Supreme Court on
August 12, 2019.
[13] On November 21, 2019, the United States
Supreme Court denied certiorari.
[14] After that denial, the case move back to this Court
for trial on the issue of damages only, as per the North
Dakota Supreme Court Court’s decision, and in
accordance with the rule of remand. Law v. Whittet,
2015 ND 16, 858 NW2d 636.
[15] The matter was set for a jury trial to commence
January 8, 2020. The Court was notified on January 7,
2020, that the issue of compensation for the taking had
been resolved. Lavern Behm thereafter submitted his
billing for attorney’s fees incurred subsequent to the
initial trial and the earlier award of attorney’s fees.
The statement included attorney’s fees incurred in the
appeal before the North Dakota Supreme Court, as well
as for the petition for Writ of Certiorari to the United
States Supreme Court. The billings further included
steps taken to finally resolve the issues of damages
before the scheduled jury trial. Lavern Behm sought
attorney’s fees and costs of $49,561.78. MDU objected
to paying Lavern Behm’s counsel’s hourly rate ($325
per hour), and all fees and costs incurred in the failed
attempt to obtain review of the North Dakota Supreme
Court decision by the United States Supreme Court.
MDU also objected to a number of specific individual
costs and fees MDU asserts are not related to the
actual litigation.

App. 138
ANALYSIS
[16] Section 32-15-32, NDCC, provides in part:
The court may in its discretion award the defendant
reasonable actual or statutory costs or both, which
may include.... reasonable attorney’s fees for all
judicial proceedings.
Lavern Behm, as the defendant in this action, is
entitled to the recovery of his reasonable attorney’s
fees, and costs associated with all judicial proceedings
pursuant to this Section.
[17] The factors which the Court must consider when
making an award of attorney’s fees in an eminent
domain proceeding are found in City of Bismarck v.
Thom, 261 NW2d 640 (ND 1977), and North Dakota
Department of Transportation v. Rosie Glow, LLC.,
2018 ND 123, 911 NW2d 334. Both cases make clear
that the predominant factors for determining
reasonable attorney’s fees are the number of hours
spent, and the hourly rate charged for those fees. The
hourly rate may be adjusted upwards or downwards
based upon an objective evaluation of the complexity
and novelty of the litigation, the degree of skill
displayed by the lawyer, customary fees charged in the
area, as well as other factors. All factors must be
considered, and no single factor is determinative.
Time Spent
[18] Attorney Lynn Boughey, counsel for Lavern Behm,
has submitted three statements for his fees and costs
incurred in this proceeding. These statements are
broken down by date, followed by a brief description of

App. 139
the work performed, and lastly the amount of time
spent on each task. The statements are reasonably
detailed and provide the Court with a fairly clear
picture of the services rendered, and the time spent.
While MDU has made a detailed list of objections, the
Court will do its own, independent review of the
statements to determine if they appear to be
reasonable for these judicial proceedings.
Strangers
[19] In its earlier order regarding the payment of
attorney’s fees following the first trial the Court
disallowed a number of entries for contacts by Lavern
Behm’s attorney with persons or entities who the Court
deemed were strangers to the proceedings. Without
explanation of how similar individuals could now
advance Lavern Behm’s cause in these judicial
proceedings as allowed by Section 32-15-32, NDCC,
counsel again includes a large number of entries in
which he had contact with individuals or entities who
are, in the Court’s eyes, total strangers to this
litigation. Contact with these individuals or entities are
not recoverable costs or attorney’s fees for these judicial
proceedings.
[20] The first billing statement is dated from June 23,
2018, through June 26, 2019.
[21] The very first entry, June 23, 2018, lists a lengthy
email from attorney Boughey to Robert Hale, and other
attorneys throughout the nation who deal with
property rights issues. There is no doubt that this is
the same Robert Hale who the Court previously noted
was a complete stranger to the preceding. Robert Hale

App. 140
has no known ownership or other interest in the Behm
property. He was not a witness to any event. While he
is a licensed attorney in North Dakota Hale filed no
documents and made no appearance in the case. The
Court is actually more than a little surprised to see his
name once again listed in counsel’s billing statement as
someone of any significance or stature to this lawsuit.
Robert Hale is a non-entity in this proceeding. Further,
counsel’s bruiting the case to other attorneys across the
nation likewise advances nothing. This first entry is
disallowed. July 3, lists another contact with Robert
Hale. This entry is likewise disallowed.
[22] As noted above, counsel for Lavern Behm had
numerous contacts with attorneys “throughout the
nation” regarding this case He also initiated a number
of contacts with the press, and other entities. None of
these contacts had anything to do with any judicial
proceeding. Nor do these contacts constitute reasonable
attorney’s fees. These entries include notations such as
“email to various press,” “email to various attorneys,”
“email from Federalist Society attorney,” “email from
AP reporter,” to note just a few of the examples. The
following entries of this ilk are excluded. They are: 812-18, 8-27-18, 8-31-18, 9-4-18, 9-6-18, 9-8-18, 10-1018, 2-2-19, 2-3-19, 2-4-19, 5-23-19, 6-14-19, and 6-22-19.
The total of all entries is 7.2 hours. Those hours are
disallowed.
Staff and Overhead
[23] Attorney’s fees are not recoverable for clerical or
secretarial activities such as file review, file
maintenance, scheduling, or other routine matters.
Youngblood v. Youngblood, 91 So.3d 190 (Ct. of App.,

App. 141
2d Dist., Fla. 2012). Work by support staff must be
substantive. Copying and other secretarial tasks are
not recoverable as attorney’s fees. Taylor v. the Chubb
Group of Insurance Companies, 1994 OK 47, 874 P2d
806. Routine office work is deemed part of an attorney’s
overhead and should be reflected in a lawyer’s hourly
rate. Hawaii Ventures v. Otaka, Inc., 116 Hawaii 465,
173 P3d 1122 (2007).
[24] Communications between a lawyer in his office
staff regarding billing matters, payment of retainers
and fees, and other financial matters are mere office
functions and should be part of counsel’s routine
overhead. These activities do not constitute legal work
and should not be passed on to opposing parties under
Section 32-15-32, NDCC. These activities do not
constitute attorney’s fees, let alone reasonable
attorney’s fees for judicial proceedings.
[25] Examining again the first billing statement the
Court notes entries such as “email from MDU staff
regarding payment of attorney’s fees,” “complete W-9,
forward same to MDU,” “receive letter from MDU with
check for attorney’s fees.” There are further entries
noting other routine contacts with staff for matters
such as scheduling, assembling documents, receipt of
routine correspondence, and emailing.
[26] After examining the first billing statement, the
Court disallows the following: 7-16-18, 7-16-18, 7-26-18,
8-18-18, 8-9-18, 8-13-18, 9-17-18, 9-21-18, 10-24-18, 112-18, 11-26-18, 12-5-18, 12-27-18, 12-28-18, 1-17-19, 118-19, 1-22-19, and 2-1-19. The total time noted on
these entries is 4.1 hours.

App. 142
North Dakota Supreme Court Appeal
[27] The case was appealed by MDU to the North
Dakota Supreme Court. The work done by counsel on
this appeal appears on the first billing invoice. The
billing starts with work done by counsel to make his
first request for payment of attorney’s fees as allowed
by the Court. The first entry is June 25, 2018. The
billing then details work on preparing the motion for
fees. The statement continues with numerous entries
regarding the receipt of MDU’s appeal and briefs, the
drafting of Lavern Behm’s own brief to the North
Dakota Supreme Court, argument in the North Dakota
Supreme Court and ultimately the receipt of the North
Dakota Supreme Court opinion. All this work
constitutes reasonable work and time expended by
counsel in pursuit of this litigation.
[28] Except for those entries noted above regarding
strangers and staff overhead, the Court will allow all
entries from June 25, 2018, through May 16, 2019,
incurred in connection with the appeal to the North
Dakota Supreme Court. The total of these entries is
36.5 hours.
[29] The Court will additionally allow the entry for May
20, 2019. This entry notes settlement discussions
between counsel for Lavern Behm and MDU. The time
noted is 1.8 hours.
[30] The total number of hours allowed from the first
billing statement is 36.5 hours.

App. 143
United States Supreme Court
[31] The second billing statement focuses entirely upon
Lavern Behm’s efforts to obtain review of the North
Dakota Supreme Court decision by the United States
Supreme Court. MDU objects to paying any
compensation to Lavern Behm’s attorney for these
efforts.
[32] Section 32-15-32, NDCC, allows for the actual
costs and reasonable attorney’s fees for all judicial
proceedings. The phrase “all judicial proceedings” is not
otherwise defined. The Court concludes, however, that
the term does not include a side trip to a federal court.
[33] MDU cites to the case of United Power Association
v. Moxness, 267 NW2d 814 (ND 1978). In that case
landowners appeared before the North Dakota Public
Service Commission. They contested the issuance of a
certificate of site compatibility for the construction of a
power transmission line across their property. They
argued that the procedures before the PSC were part
of, or a substitution for a judicial determination of
necessity in the subsequent eminent domain
proceeding. Consequently, they should be entitled to
their attorney’s fees and costs for appearing before the
PSC pursuant to Section 32-15-32, NDCC. The District
Court agreed. United Power appealed.
[34] The North Dakota Supreme Court reversed the
award of fees for appearances before the PSC. The
North Dakota Supreme Court reasoned that the
proceedings before the PSC were governed by Chapter
49-22, NDCC, and not by Chapter 32-15, NDCC. The
proceedings before the PSC were unrelated to the issue

App. 144
of eminent domain. The North Dakota Supreme Court
held that no language in Section 32-15-32, or Section
32-15-35, NDCC, in any way indicated an intention by
the legislature to extend those provisions to any
proceeding outside of Chapter 32-15, NDCC.
[35] In Arenson v. City of Fargo, 331 NW2d 30 (ND
1983), a landowner sued the City of Fargo and Cass
County Drain Board in connection with the
construction and maintenance of a dam on the
Sheyenne River. The dam caused water to back onto
the landowner’s farm. The landowner commenced an
action for damages alleging negligence by the
defendants. The trial court dismissed the action on a
motion for summary judgment due to the failure of the
plaintiff to timely file a proper notice of claim. The
landowner appealed.
[36] The North Dakota Supreme Court affirmed the
dismissal of the negligence action, but reversed the
decision holding that the Complaint stated a cause of
action for inverse condemnation.
[37] A jury trial was held on the issue of inverse
condemnation. Arneson prevailed. He then submitted
his request for attorney’s fees and costs, including
attorney’s fees associated with the original negligence
claim, and the appeal from the grant of summary
judgment. The attorney’s fees request was $47,000.00.
The District Court slashed the fee to $9,750.00. The
District Court held that the first proceeding the claim
of negligence was properly dismissed due to a lack of
proper notice. The primary focus of Arneson’s appeal
was the grant of summary judgment on the issues of
negligence and notice, and not inverse condemnation.

App. 145
It would have therefore been improper, the District
Court noted, to include any award of fees for those
services under Section 32-15-32, NDCC. The North
Dakota Supreme Court agreed, holding that it was not
an abuse of discretion to disallow fees for the
negligence action. The action in negligence was not
contemplated by Chapter 32-15, NDCC.
[38] In Gissel v. Kenmare Township, 512 NW2d 470
(ND 1994), the District Court awarded a landowner
costs and attorney’s fees of $28,076.00 in connection
with a claim of inverse condemnation. The landowner
appealed arguing that the District Court should have
awarded $49,970.00. The District Court reasoned that
the reduction was justified because, among other
reasons, the landowner had previously embarked upon
improvident appeals. The prior appeals were noted in
footnote 2 of the North Dakota Supreme Court opinion.
[39] The North Dakota Supreme Court affirmed the
District Court’s award of fees.
[40] From these cases this Court reasons that Section
32-15-32, NDCC, limits the recovery of attorney’s fees
to those legal services related directly to the
condemnation proceeding alone. Lavern Behm’s
petition for Writ of Certiorari to the United States
Supreme Court does not satisfy this limitation. The
three cited cases establish that legal fees are not
allowed for proceedings brought outside of Chapter 3215, NDCC. A petition to the United States Supreme
Court is not a proceeding contemplated in Chapter 3215, NDCC, any more than was a proceeding before the
PSC to contest a siting decision, or an appeal from a
summary judgment issue of negligence. A petition to

App. 146
the United States Supreme Court is an improvident
act. Section 32-15-32, NDCC, allows for the recovery of
reasonable attorney’s fees incun·ed in proceedings
within that Chapter. It does not contemplate a recovery
for all fees incurred for any proceeding not directly
contemplated by the Chapter. The Court therefore
disallows all fees incurred in connection with the
pursuit of the petition for certiorari.
[41] On the first billing statement these fees encompass
all entries from June 24, 2019, through June 26, 2019.
These fees are disallowed.
[42] Lavern Behm submitted a second billing statement
for June 27, 2019, through August 12, 2019. All of the
entries on this statement are related to the drafting
and printing of the petition for Writ of Certiorari to the
United States Supreme Court. For the reasons stated
above, all of these fees are denied. No fees are awarded
for the second billing statement.
[43] Lavern Behm submitted a third billing statement
for fees incurred from August 13, 2019, until January
8, 2020.
[44] All entries between August 13, 2019, and
November 21, 2019, are related to the United States
Supreme Court process. For the reasons stated above,
these fees are denied.
[45] However, all entries from December 4, 2019,
through January 8, 2020, appear to be related to the
final trial preparations on the issue of damages,
settlement discussions, and the ultimate and final
resolution of this eminent domain case. The total

App. 147
number of hours allowed on the third billing statement
amount to 16.9 hours.
[46] The Court therefore allows 55.2 hours for counsel’s
time. (38.3+16.9).
Hourly Rate
[47] Lavern Behm’s attorney billed his time in these
statements at $325 per hour. MDU objects to this
amount, and argues that counsel’s original per hour
billing rate to his client, $250 per hour, is justified.
[48] In the initial billing for the April 2018 proceeding
this Court approved Lavern Behm’s attorney’s fees at
the rate of$325 per hour. In doing so, the Court
analyzed the factors set out in the City of Bismarck v.
Thom, 261 NW2d 640 (ND 1977), and North Dakota
Department of Transportation v. Rosie Glow, LLC.,
2018 ND 123, 911 NW2d 334. The Court gave credit to
counsel for his high degree of professionalism and skill.
The Court noted that the results obtained for Lavern
Behm were substantial. The Court further considered
attorney’s fees awards in recent eminent domain cases
in the North Central Judicial District. Relying upon all
of these factors the Court concluded that Lavern
Behrn.’s counsel was entitled to his hourly rate, $250
per hour, plus a “Lodestar” increase of $75 per hour to
an hourly fee of $325 per hour.
[49] MDU paid Lavern Behm’s attorney’s fees incurred
in the first proceeding as assessed by the Court at the
rate of $325 per hour.
[50] MDU then appealed the decision of this Court.
MDU limited that appeal to the decision regarding

App. 148
necessity for the taking only. MDU did not appeal from
this Court’s ruling regarding the award of attorney’s
fees, or the hourly rate for those fees.
[51] The law of the case doctrine provides that if an
appellate court has passed on a legal issue and
remanded the case for further proceedings, the legal
questions thus determined by the appellate court will
not be differently determined in a subsequent appeal in
the same case. Further, this limitation encompasses
not only those issues decided in the first appeal, but
also those issues decided by the trial court prior to the
first appeal, and which were not presented for review
in the first appeal. Beuchler Construction v. City of
Williston, 413 NW2d 336 (ND 1987).
[52] By failing to raise the issue of counsel’s hourly rate
in the first appeal, MDU has waived the issue and is
now foreclosed from raising it. The hourly rate for
Lavern Behm’s attorney was established by the first
round of litigation.
[53] The Court will allow Lavern Behm’s lawyer’s
hourly rate to remain at $325 per hour.
[54] The Court thus allows attorney’s fees of $17,940
(55.2 hours times $325 per hour).
Costs
A. Lavern Behm
[55] Lavern Behm has made a request for cost of
$55.25, billing statement number one, $3,218.42,
billing statement number two, and $950.00, billing

App. 149
statement number three. The total amount claimed is
$4,223.67. The Court allows $48.00 of costs.
[56] The lion’s share of costs, appearing on statements
two and three, are all costs incurred for printing briefs
in support of the petition for certiorari to the United
States Supreme Court. The same reasons which were
stated above when denying the request for attorney’s
fees would likewise disallow the cost of printing briefs
for presentation to the federal high court.
[57] With regard to the costs stated in the first billing
statement, the first item is $7.25 postage. The postage
was for the mailing of MDU’s North Dakota Supreme
Court brief to the client, Lavern Behm. Costs are
creatures of statute and are allowed only as by law.
Thorvaldson-Johnson Co. v. Cochran, 64 ND 367, 252
NW 268 (1934). Costs are provided for by Chapter 2826, NDCC. Nowhere in that Chapter are costs for
attorney’s postage expenses included. Costs and
expenses incurred merely for the convenience of
counsel are generally not recoverable. United
Development Corporation v. State Highway
Department, 133 NW2d 439 (ND 1965). Further, much
like clerical time, the cost of an attorney’s desk, chair,
telephone, paper, law library, office rent, and the like,
postage costs may well be deemed part of an attorney’s
overhead. The expense of doing business goes into the
setting of counsel’s hourly rate. The cost for postage is
denied.
[58] The second two items of costs are surcharges for
expenses and fees charged by the North Dakota
Supreme Court. Although Lavern Behm did not prevail
in the North Dakota Supreme Court, these costs were

App. 150
made necessary by the North Dakota Supreme Court
rules regarding electronic filings. They appear
therefore to be legitimate costs incurred in this
condemnation proceeding. The Court would further
note that it was MDU’s appeal which forced these costs
onto Lavern Behm. MDU should not be heard to
complain about these costs, any more than it can
complain about Lavern Behm’s attorney’s time spent
writing briefs and appearing before the North Dakota
Supreme Court responding to MDU’s appeal. $48.00
are allowed as costs.
B. MDU
[59] MDU lists appellate costs of $545.00: filing fee for
Notice of Appeal, $125.00, plus preparation of the
transcript on appeal, $420.00. An award of costs was
ordered by the North Dakota Supreme Court in its
Judgment issued on May 16, 2019. The North Dakota
Supreme Court ordered that MDU have and recover
from Lavern Behtn costs and disbursements on appeal
under Rule 39, NDRAppPro, to be taxed and allowed in
the Court below-that is, this District Court.
[60] Rule 39, NDRAppPro, allows the prevailing party
on appeal to recover costs for: (1) the preparation of
transcript, and (4) the filing fee. MDU’s submission for
costs is in line with the recovery allowed by Rule 39.
[61] This District Court is somewhat perplexed by the
North Dakota Supreme Court’s order for costs. In the
case of Lenertz v. City of Minot, 2019 ND 53, 923
NW2d 479, this very District Court dismissed a
landowner’s action for inverse condemnation against
the City of Minot. As part of the Order and Judgment,

App. 151
this Court ordered costs be paid to the City as the
prevailing party. The landowner appealed. The North
Dakota Supreme Court affirmed the dismissal, but
reversed the award of costs. The North Dakota
Supreme Court reasoned that general cost shifting
provisions found in the Rules of Civil Procedure and
other statutes did not apply to eminent domain
proceedings brought pursuant to Chapter 32-15,
NDCC. Section 32-15-32, NDCC, precluded an award
of costs against the landowner in an inverse
condemnation proceeding. This Court can think of no
good reason why this holding, and the limitations on
cost shifting found in Chapter 32-15, NDCC, would not
have equal application to this eminent domain
proceeding brought pursuant to Chapter 32-15, NDCC.
Interestingly, in the Judgment of the North Dakota
Supreme Court which accompanied the Lenertz
opinion, the North Dakota Supreme Court did not
award any appellate costs to the City of Minot as the
prevailing party, at least in part, on the appeal.
[62] Yet, in this case, decided only a couple of months
later, the North Dakota Supreme Court orders an
award of appellate costs to MDU. As King Mongkut
says: “It’s a puzzlement.”
[63] Notwithstanding the seeming contradictions the
Court will award MDU its appellate costs. It does so for
two reasons.
[64] First, the rule of remand requires the trial court
follow the pronouncements of the appellate court on
legal issues, and carry out the appellate court’s
mandate according to its terms. Law v. Whittet, 2015
ND 16, 858 NW2d 636. The North Dakota Supreme

App. 152
Court’s Judgment is clear. This Court has been ordered
to award costs to MDU. This Court will follow the
North Dakota Supreme Court mandate.
[65] Second, the MDU v. Behm decision is later in time
than the Lenertz v. City of Minot decision. The opinion
and Judgment in the Lenertz case were issued on
February 21, 2019. The opinion and Judgment in the
Behm case were issued May 16, 2019. This Court must
assume that the North Dakota Supreme Court was
aware of its earlier decision in Lenertz, and saw reason
to distinguish the two cases. The Court will follow the
Judgment that is later in time.
[66] MDU is awarded its appeals costs of $545.00.
[67] IT IS THEREFORE ORDERED:
[68] Lavern Behm is awarded attorney’s fees for all
proceedings in connection with Chapter 32-15, NDCC,
in the amount of $17,940.00.
[69] Lavern Behm is awarded costs for all proceedings
in connection with Chapter 32-15, NDCC, in the
amount of $48.00.
[70] MDU is awarded its appellate costs, as ordered by
the North Dakota Supreme Court in its Judgment of
May 16, 2019, in the amount of $545.00. This amount
is to be offset against the costs and fees awarded to
Lavern Behm, and noted above.
[71] Costs and fees are therefore awarded to Lavern
Behm in the total sum of $17,443.00 ($17,940.00 plus
$48.00 minus $545.00).

App. 153
[72] Counsel for MDU shall prepare the necessary final
Judgment for entry.
[73] February 7, 2020
/s/ Gary H. Lee
[74] Gary H. Lee, District Judge

